<html>
<title> - FISCAL YEAR 2017 EPA BUDGET</title>
<body><pre>[House Hearing, 114 Congress]
[From the U.S. Government Publishing Office]





                      FISCAL YEAR 2017 EPA BUDGET

=======================================================================

                             JOINT HEARING

                               BEFORE THE

                    SUBCOMMITTEE ON ENERGY AND POWER

                                AND THE

              SUBCOMMITTEE ON ENVIRONMENT AND THE ECONOMY

                                 OF THE

                    COMMITTEE ON ENERGY AND COMMERCE
                        HOUSE OF REPRESENTATIVES

                    ONE HUNDRED FOURTEENTH CONGRESS

                             SECOND SESSION

                               __________

                        TUESDAY, MARCH 22, 2016

                               __________

                           Serial No. 114-130





[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]






      Printed for the use of the Committee on Energy and Commerce

                        energycommerce.house.gov
                                  ______

                         U.S. GOVERNMENT PUBLISHING OFFICE 

20-543 PDF                     WASHINGTON : 2017 
-----------------------------------------------------------------------
  For sale by the Superintendent of Documents, U.S. Government Publishing 
  Office Internet: bookstore.gpo.gov Phone: toll free (866) 512-1800; 
         DC area (202) 512-1800 Fax: (202) 512-2104 Mail: Stop IDCC, 
                          Washington, DC 20402-0001
                          
                        
                        
                        
                        
                        
                        
                        
                        
                        
                        
                        
                        
                        
                        
                        
                        
                        
                        
                        
                        
                        
                        
                        
                        
                        
                    COMMITTEE ON ENERGY AND COMMERCE

                          FRED UPTON, Michigan
                                 Chairman
JOE BARTON, Texas                    FRANK PALLONE, Jr., New Jersey
  Chairman Emeritus                    Ranking Member
ED WHITFIELD, Kentucky               BOBBY L. RUSH, Illinois
JOHN SHIMKUS, Illinois               ANNA G. ESHOO, California
JOSEPH R. PITTS, Pennsylvania        ELIOT L. ENGEL, New York
GREG WALDEN, Oregon                  GENE GREEN, Texas
TIM MURPHY, Pennsylvania             DIANA DeGETTE, Colorado
MICHAEL C. BURGESS, Texas            LOIS CAPPS, California
MARSHA BLACKBURN, Tennessee          MICHAEL F. DOYLE, Pennsylvania
  Vice Chairman                      JANICE D. SCHAKOWSKY, Illinois
STEVE SCALISE, Louisiana             G.K. BUTTERFIELD, North Carolina
ROBERT E. LATTA, Ohio                DORIS O. MATSUI, California
CATHY McMORRIS RODGERS, Washington   KATHY CASTOR, Florida
GREGG HARPER, Mississippi            JOHN P. SARBANES, Maryland
LEONARD LANCE, New Jersey            JERRY McNERNEY, California
BRETT GUTHRIE, Kentucky              PETER WELCH, Vermont
PETE OLSON, Texas                    BEN RAY LUJAN, New Mexico
DAVID B. McKINLEY, West Virginia     PAUL TONKO, New York
MIKE POMPEO, Kansas                  JOHN A. YARMUTH, Kentucky
ADAM KINZINGER, Illinois             YVETTE D. CLARKE, New York
H. MORGAN GRIFFITH, Virginia         DAVID LOEBSACK, Iowa
GUS M. BILIRAKIS, Florida            KURT SCHRADER, Oregon
BILL JOHNSON, Missouri               JOSEPH P. KENNEDY, III, 
BILLY LONG, Missouri                     Massachusetts
RENEE L. ELLMERS, North Carolina     TONY CARDENAS, California
LARRY BUCSHON, Indiana
BILL FLORES, Texas
SUSAN W. BROOKS, Indiana
MARKWAYNE MULLIN, Oklahoma
RICHARD HUDSON, North Carolina
CHRIS COLLINS, New York
KEVIN CRAMER, North Dakota
                    Subcommittee on Energy and Power

                         ED WHITFIELD, Kentucky
                                 Chairman
PETE OLSON, Texas                    BOBBY L. RUSH, Illinois
  Vice Chairman                        Ranking Member
JOHN SHIMKUS, Illinois               JERRY McNERNEY, California
JOSEPH R. PITTS, Pennsylvania        PAUL TONKO, New York
ROBERT E. LATTA, Ohio                ELIOT L. ENGEL, New York
GREGG HARPER, Vice Chairman          GENE GREEN, Texas
DAVID B. McKINLEY, West Virginia     LOIS CAPPS, California
MIKE POMPEO, Kansas                  MICHAEL F. DOYLE, Pennsylvania
ADAM KINZINGER, Illinois             KATHY CASTOR, Florida
H. MORGAN GRIFFITH, Virginia         JOHN P. SARBANES, Maryland
BILL JOHNSON, Ohio                   PETER WELCH, Vermont
BILLY LONG, Missouri                 JOHN A. YARMUTH, Kentucky
RENEE L. ELLMERS, North Carolina     DAVID LOEBSACK, Iowa
BILL FLORES, Texas                   FRANK PALLONE, Jr., New Jersey (ex 
MARKWAYNE MULLIN, Oklahoma               officio)
RICHARD HUDSON, North Carolina
JOE BARTON, Texas
FRED UPTON, Michigan (ex officio)
                                 ------                                

              Subcommittee on Environment and the Economy

                         JOHN SHIMKUS, Illinois
                                 Chairman
GREGG HARPER, Vice Chairman          PAUL TONKO, New York
  Vice Chairman                        Ranking Member
ED WHITFIELD, Kentucky               KURT SCHRADER, Oregon
JOSEPH R. PITTS, Pennsylvania        GENE GREEN, Texas
TIM MURPHY, Pennsylvania             DIANA DeGETTE, Colorado
ROBERT E. LATTA, Ohio                LOIS CAPPS, California
DAVID B. McKINLEY, West Virginia     MICHAEL F. DOYLE, Pennsylvania
BILL JOHNSON, Ohio                   JERRY McNERNEY, California
LARRY BUCSHON, Indiana               TONY CARDENAS, California
BILL FLORES, Texas                   FRANK PALLONE, Jr., New Jersey (ex 
RICHARD HUDSON, North Carolina           officio)
KEVIN CRAMER, North Dakota
FRED UPTON, Michigan (ex officio)
  
  
  
  
  
  
  
  
  
  
  
  
  
  
  
  
  
  
                             C O N T E N T S

                              ----------                              
                                                                   Page
Hon. Ed Whitfield, a Representative in Congress from the 
  Commonwealth of Kentucky, opening statement....................     2
    Prepared statement...........................................     3
Hon. Paul Tonko, a Representative in Congress from the State of 
  New York, opening statement....................................     4
Hon. John Shimkus, a Representative in Congress from the State of 
  Illinois, opening statement....................................     5
    Prepared statement...........................................     6
Hon. Frank Pallone, Jr., a Representative in Congress from the 
  State of New Jersey, opening statement.........................     6
    Prepared statement...........................................     8
Hon. Fred Upton, a Representative in Congress from the State of 
  Michigan, opening statement....................................     9
    Prepared statement...........................................    10
Hon. Jerry McNerney, a Representative in Congress from the State 
  of California, opening statement...............................    10

                               Witnesses

Gina McCarthy, Administrator, U.S. Environmental Protection 
  Agency.........................................................    11
    Prepared statement...........................................    14
    Answers to submitted questions...............................    72

                           Submitted material

Chart entitled, ``Coal-fired Power Plants Planned and Under 
  Construction,'' submitted by Mr. McKinley......................    67
Letter of January 14, 2016, from Members of Congress to the 
  United States Environmental Protection Agency, submitted by Mr. 
  Mullin.........................................................    68

 
                      FISCAL YEAR 2017 EPA BUDGET

                              ----------                              


                        TUESDAY, MARCH 22, 2016

                  House of Representatives,
                  Subcommittee on Energy and Power,
                                             joint with the
        Subcommittee on Environment and the Economy
                           Committee on Energy and Commerce
                                                    Washington, DC.
    The subcommittees met, pursuant to call, at 2:00 p.m., in 
room 2123 Rayburn House Office Building, Hon. Ed Whitfield 
(chairman of the subcommittee on Energy and Power) presiding.
    Members present: Representatives Whitfield, Shimkus, 
Harper, Olson, Barton, Murphy, Latta, McKinley, Pompeo, 
Griffith, Johnson, Long, Ellmers, Bucshon, Flores, Mullin, 
Hudson, Cramer, Upton (ex officio), Tonko, McNerney, Green, 
DeGette, Capps, Sarbanes, Yarmuth, Loebsack, Schrader, and 
Pallone (ex officio).
    Staff present: Will Batson, Legislative Clerk, Energy and 
Power, Environment and the Economy; Mike Bloomquist, Deputy 
Staff Director; Allison Busbee, Policy Coordinator, Energy and 
Power; Jerry Couri, Senior Environmental Policy Advisor; Tom 
Hassenboehler, Chief Counsel, Energy and Power; A.T. Johnston, 
Senior Policy Advisor; Ben Lieberman, Counsel, Energy and 
Power; David McCarthy, Chief Counsel, Environment/Economy; Mary 
Neumayr, Senior Energy Counsel; Annelise Rickert, Legislative 
Associate; Chris Santini, Policy Coordinator, Oversight and 
Investigations; Chris Sarley, Policy Coordinator, Environment 
and Economy; Dan Schneider, Press Secretary; Peter Spencer, 
Professional Staff Member, Oversight; Dylan Vorbach, Deputy 
Press Secretary; Christine Brennan, Minority Press Secretary; 
Jeff Carroll, Minority Staff Director; Timia Crisp, Minority 
AAAS Fellow; Jean Fruci, Minority Energy and Environment Policy 
Advisor; Caitlin Haberman, Minority Professional Staff Member; 
Rick Kessler, Minority Senior Advisor and Staff Director, 
Energy and Environment; Josh Lewis, Minority EPA Detailee; John 
Marshall, Minority Policy Coordinator; Dan Miller, Minority 
Staff Assistant; Alexander Ratner, Minority Policy Analyst; 
Matt Schumacher, Minority Press Assistant; Andrew Souvall, 
Minority Director of Communications, Outreach and Member 
Services; and Tuley Wright, Minority Energy and Environment 
Policy Advisor.

  OPENING STATEMENT OF HON. ED WHITFIELD, A REPRESENTATIVE IN 
           CONGRESS FROM THE COMMONWEALTH OF KENTUCKY

    Mr. Whitfield [presiding]. I would like to call this 
hearing to order.
    This is a joint hearing of the Energy and Power 
Subcommittee with the Environment and the Economy Subcommittee. 
Of course, the subject of today's hearing is the FY 2017 budget 
for EPA.
    I would like to recognize myself for 5 minutes.
    We, of course, welcome Administrator McCarthy. I went down 
before the hearing started. I know she has been testifying 
before the appropriators, and now, she is going to be 
testifying before us. I suggested that after she finished with 
us, that she go on to another committee and testify there.
    [Laughter.]
    But there is no secret that there is a really serious 
division in the country over some of the programs at EPA, 
certainly the Clean Energy Plan. The administration, we 
recognize, views climate change as the Number 1 issue facing 
mankind, and they have moved forward aggressively to address it 
in the U.S. with the Clean Energy Plan. From my personal view, 
I think it is being done because of international commitments 
that the President has made as a result of his Georgetown 
speech and his other commitments internationally to be a leader 
in addressing climate change.
    But I think that it has really come to a head in this 
country over the controversy of the Clean Energy Plan with the 
lawsuits filed by--is it 26 states or 27 states? Twenty-seven 
states filed a lawsuit. I think that shows quite clearly that 
there is real angst over the extreme process that EPA is 
utilizing to adopt this Clean Energy Plan.
    I might say once again that even Larry Tribe, who is a 
respected constitutional lawyer, said in some ways it was like 
tearing up the Constitution. So, many people do feel like that 
you can address climate change, but you ought to at least 
follow the law. Other people say, well, the ends justify the 
means.
    But the Supreme Court did stay the Clean Energy Plan by a 
vote of 5-to-4. Even under the Utility MACT, the Supreme Court 
ruled that cost should have been considered. We all recognize 
that, by the time they made their decision, the regulated 
bodies had already implemented the plan. So, it had been done, 
even though the Court said there were some problems with it. 
And even under the Tailoring Rule, the Supreme Court issued a 
decision that called that into question as well.
    So, one of the reasons many of us on my side of the aisle 
are upset is that we feel like the EPA is being too aggressive 
and that they have adopted a plan to be aggressive, recognizing 
that when you have a divided government, the only way that a 
party can contest it is go to court. If you go to court, and if 
you don't get a stay, then, frequently, by the time the 
decision is made and all the court procedures have been 
exhausted, it is too late.
    So, that is why we are going to do everything we can do to 
do serious oversight to make sure that the stay issued by the 
Supreme Court is followed, recognizing that even on that there 
is probably different legal opinions about what can and cannot 
be done.
    But we know that the EPA's proposed budget is $8.267 
billion, which is $127 million increased over the enacted level 
for FY 2016 and certainly higher than the FY 2009 enacted level 
of $7.6 billion.
    All of us want to have a lot of questions for you, Ms. 
McCarthy. As I say, we disagree with you on many things. We 
respect you as a person and we recognize that you are a 
talented person with very strong views. And we have very strong 
views.
    Unfortunately, we are going to have a vote during this 
process, but it won't take long. I think we are only going to 
have about 30-minute votes.
    So, with that, I would like to yield back the balance of my 
time and recognize the gentleman from New York for his 5-minute 
opening statement.
    [The prepared statement of Mr. Whitfield follows:]

                Prepared statement of Hon. Ed Whitfield

    Today is our final EPA budget hearing for the Obama 
administration, and as always I welcome Administrator McCarthy 
and look forward to her comments on the agency's budget and its 
priorities.
    EPA's proposed budget is $8.267 billion dollars for FY 
2017, a $127 million increase over the enacted level for FY 
2016 and still higher than the FY 2009 enacted level of $7.6 
billion. Of course, with EPA the issue is not so much the 
funding it gets but what it does with the money. As we've seen 
over the last 7 years, for every dollar allocated to the agency 
each year, we may end up with several dollars in new regulatory 
costs that hurt consumers, businesses and jobs without 
commensurate environmental benefits. In fact, the President's 
Clean Power Plan alone is estimated by the agency to impose 
billions of dollars in annual compliance costs, eventually 
reaching levels comparable to the agency's current budget and 
outside estimates are even higher. We see $280 million in this 
budget going toward addressing climate change, an increase of 
$85.6 million.
    The costs of climate regulations are having real effects on 
people and family budgets. According to a NERA study, 
electricity prices could increase by an average of 11% to 14% 
nationwide under the Clean Power Plan. Thousands of jobs are 
being lost throughout coal country in large part due to EPA 
regulations, with many more yet to come as several of the 
agency's rules targeting coal have not yet fully taken effect.
    The Supreme Court's recent stay of the Clean Power Plan is 
unprecedented and highlights the importance of protecting 
states from economic harm as the rule is reviewed by the 
courts. Yet, this agency is taking actions to move forward 
under the rule before courts can review the legal challenges. 
It is clear that EPA has no authority to implement or enforce 
the rule pending the judicial review process. I have a great 
deal of concern with recent comments by the EPA indicating that 
the agency is continuing to work and spend taxpayer dollars 
``to assist states that voluntarily decide to move forward.'' 
on the Clean Power Plan.
    The impacts of this climate agenda go beyond the lost jobs 
and consumer pain. This EPA has made global warming its 
overriding concern even though there is no Congressional 
authority directing it to do so. At the same time, the agency 
has taken its eye off the ball with regard to many of the 
agency's most important duties that are clearly delegated to it 
by statute.
    While EPA has been issuing an ever expanding set of climate 
regulations, the agency has repeatedly failed to meet its 
critical deadlines under the Renewable Fuel Standard program. 
The Clean Air Act specifies that the agency must finalize its 
annual rule setting out the required volumes of ethanol and 
other biofuels by November 30th of the prior year, so that 
regulated entities know ahead of time what the requirements 
are. Similarly, the agency faces numerous lawsuits for failure 
to meet other statutory deadlines. The agency diverts resources 
to the President's climate agenda yet it neglects statutory 
responsibilities and issues of direct consequence to people's 
health.
    Perhaps most concerning of all is what the agency plans to 
do now that time is running out on it. The pace of costly new 
regulations has been extreme throughout this administration, 
and I anticipate it may accelerate further as the Obama 
administration tries to get as much out the door in its final 
months.
    We have philosophical areas of disagreement when it comes 
to the President's extreme climate agenda. As the Committee 
with jurisdiction over the EPA, we will continue our extensive 
oversight of this agency and its proposed budget during the 
President's final year in office.

   OPENING STATEMENT OF HON. PAUL TONKO, A REPRESENTATIVE IN 
              CONGRESS FROM THE STATE OF NEW YORK

    Mr. Tonko. Thank you. Thank you, Mr. Chair. And, Chair 
Whitfield and Chair Shimkus, for holding this hearing I say 
thank you. It is important for us to focus on the Environmental 
Protection Agency's budget request for fiscal year 2017.
    Might I welcome, also, our Administrator McCarthy? Thank 
you for being here to share your thoughts and provide 
information, and thank you for your sound leadership and your 
stewardship of many of the programs that make for better 
results with the environment.
    Public health and a clean environment are intricately 
linked, and I strongly believe that these principles support 
economic growth. Whether it is reducing air pollution, 
financing drinking and clean water infrastructure, or helping 
support the cleanup of brownfields for reuse, the EPA plays an 
essential role in keeping Americans and our environment 
healthy.
    I know there are many members who believe that cutting the 
EPA budget will block the agency from issuing regulations and 
enforcing environmental laws, but, in reality, much of the 
budget supports state and local governments, either through 
grants and loans or with information and technical assistance. 
Cuts to the EPA budget cause additional burdens on state and 
local governments.
    The EPA has and will continue to play a critical role in 
our nation's response to reducing greenhouse gas emissions and 
addressing the threat of climate change. Despite what some may 
believe, climate change is happening and needs actions. The 
Clean Power Plan is essential to this response.
    I also want to point out that this committee still has not 
held a single hearing to examine the poor and deteriorating 
state of drinking water infrastructure around the country. This 
is an area of jurisdiction that we have neglected, and I find 
that very troubling.
    EPA has estimated the 20-year capital needs for this 
infrastructure at some $384 billion. The American Society of 
Civil Engineers has graded our drinking water infrastructure a 
``D''. Federal support for drinking water systems is primarily 
done through the Drinking Water State Revolving Fund, or the 
SRF, which was created and last authorized in 1996. Through the 
SRF, we provide grants to states to administer this funding, 
giving them plenty of flexibility to address the greatest 
concerns that they have in the individual states.
    Since 2003, we have made little to no effort to reassess 
whether the federal government is doing its fair share. The 
hundreds of thousands of water main breaks every year, trillion 
gallons of water lost through leaks, millions of lead service 
lines, and prevalence of century-old pipes suggest that we are 
not.
    USA Today recently reported that nearly 2,000 water systems 
across all 50 states have exceeded the EPA's lead action level 
within the past 4 years. That is unacceptable.
    The federal commitment is simple, not good enough, and we 
must step up to help states and local communities finance these 
projects. A majority of the Democrats on this committee have 
cosponsored the Assistance, Quality, and Affordability, or AQUA 
Act, which would reauthorize the Drinking Water SRF at Recovery 
Act levels and beyond, in addition to making some much-needed 
updates to the Safe Drinking Water Act.
    We stand ready and willing to be partners in this effort. 
For inspiration, we need not look any further than our 
colleagues on the Transportation and Infrastructure Committee 
who passed a bipartisan surface transportation bill that 
included a $70 billion transfer from the General Fund. We would 
only need a fraction of that to make major headway in our 
drinking water infrastructure backlog, that infrastructure 
which is hidden infrastructure.
    But, sadly, without the need for extension after extension 
of the Drinking Water SRF, we have forgotten the bipartisan 
nature of this issue in this committee. It is time to get 
serious about this committee's role in protecting public health 
and maintaining our drinking water infrastructure. Every job 
and every life relies on water. It relies on the commitment 
that we will demand nothing less than safe drinking water. It 
is time to come together, recognize this, and take action.
    With that, Administrator McCarthy, I look forward to your 
testimony and to working with you to continue our progress in 
environmental protection. Again, thank you for being here.
    With that, I yield back.
    Mr. Whitfield. The gentleman yields back.
    At this time the Chair recognizes the gentleman from 
Illinois, Mr. Shimkus, who is chairman of the Environment and 
the Economy Subcommittee, for 5 minutes.

  OPENING STATEMENT OF HON. JOHN SHIMKUS, A REPRESENTATIVE IN 
              CONGRESS FROM THE STATE OF ILLINOIS

    Mr. Shimkus. Thank you, Mr. Chairman.
    And welcome, Administrator McCarthy.
    Hopefully, we can continue to work on coal ash and, as we 
talked about earlier, getting TSCA over the finish line. We 
appreciate some of the expertise your office has been able to 
provide for us to make those decisions.
    Madam Secretary, there is real pain in coal country, as you 
know. Market conditions have some effect, but, also, they just 
can't keep up with the numerous rules and regulations that they 
are trying to meet, whether that is Casper or cooling towers, 
Clean Power Plan, mercury, MATS, stream protection rule, Waters 
of the U.S. It is just too much that they can handle and have 
any consistency and planning. That is why the coal regions of 
our country are in dire straits. When you lose a coal mine, you 
lose all the periphery jobs. You lose the grocery stores, the 
gas stations, and the like.
    We know that you are here asking at least the appropriators 
for more money. I am fresh off the campaign trail. I had to 
tell my folks that you were at 2008 funding levels and at 1989 
staff levels. And all my constituents said, well, that is still 
too much. So, we have an education to do.
    I had to remind them there are some things that I think are 
important that the agency does, too. We have the Superfund 
responsibilities. We have brownfield reclamation. There are 
things that we need to do. But the environment out there today 
makes it difficult for the public to really appreciate the 
budget request and the job challenges that our nation is facing 
right now.
    But I want to thank you for your service and the 
professionalism that you have shown. I will have a couple of 
tougher questions when we get to those, but I know that you are 
up to it. With that, I appreciate your coming.
    And, Mr. Chairman, I yield back.
    [The prepared statement of Mr. Shimkus follows:]

                Prepared statement of Hon. John Shimkus

    This is a budget hearing. So let's talk about the budget.
    Since Republicans took the House majority in 2012, we've 
used our power of the purse to readjust EPA's budget from the 
outlier levels of 2009 to something more in line with the trend 
set for 2008 spending levels and to reduce EPA staffing to 1989 
levels.
    Why? Why did we cut your agency's budget?
    It's not because Republicans are anti-environment. We all 
want to breathe clean air and drink clean and safe water.
    And it's not personal or political either.
    We appreciate your time here today, Madam Administrator, 
and I appreciate your willingness to work with Congress on coal 
ash legislation and to update the Toxic Substances Control Act. 
But, cooperation should not be the exception to the rule.
    The problem, and the reason we've cut your budget, is that 
your agency, is prioritizing new rules and regulations that 
Congress never told you to pursue in the first place.
    You're not doing a bad job, you're doing the wrong job.And 
that's a big problem.
    It's a problem because the Clean Power Plan you're working 
on is unconstitutional.
    It's a problem because the WOTUS power grab you've 
attempted ignores clearly worded statutes, and
    It's a problem because your cap-and-trade scheme was 
explicitly rejected by a bipartisan majority in Congress.
    This isn't the way our Constitutional Republic is meant to 
operate. Congress writes the laws, not the executive branch.
    So by cutting EPA's budget and reducing its staff levels, 
our intent is that you'll refocus your limited resources toward 
implementing and enforcing congressionally authorized core 
missions and policies. We want you to do your job--no more, no 
less.

    Mr. Whitfield. The gentleman yields back.
    At this time I recognize the gentleman from New Jersey, Mr. 
Pallone, for 5 minutes.

OPENING STATEMENT OF HON. FRANK PALLONE, JR., A REPRESENTATIVE 
            IN CONGRESS FROM THE STATE OF NEW JERSEY

    Mr. Pallone. Thank you, Mr. Chairman, and also 
Administrator McCarthy, for being here today to discuss the 
EPA's programs and budget.
    EPA's work is critically important to protecting the health 
of our communities and our environment. The President's fiscal 
year 2017 budget funds the EPA at $8.267 billion, a modest 
increase of $127 million from the fiscal year 2016 enacted 
level. And this also deals with the funding level approved as 
part of the bipartisan budget agreement in October.
    I support this increase, but it is important that we all 
recognize that far more resources are needed to properly 
address all the environmental issues facing our nation today. A 
clean environment is essential to public health and to a strong 
economy.
    It is also important to recognize that EPA's budget 
represents a small portion of the overall federal budget, less 
than one-quarter of 1 percent. We should also remember that EPA 
shares over 40 percent of its funding with the states and 
tribes to help them implement federal environmental laws and 
achieve national goals. These funds support local economies and 
communities big and small.
    The recent drinking water crisis across the nation 
demonstrates how important it is to invest in our drinking 
water systems. I commend the President for increasing the 
Drinking Water State Revolving Fund, or SRF, by nearly $160 
million. Our drinking water systems need more funding to help 
provide clean and safe drinking water to communities.
    While I am happy to see this funding increase, I must 
reiterate that so much more is needed. The Drinking Water SRF 
has been underfunded for years. According to EPA's most recent 
needs survey, $385 billion is needed over the next 20 years to 
modernize and repair our drinking water systems.
    We should be working together to make these critical 
investments to ensure the health of our communities. We have 
reached a point where essential water and waste infrastructure 
needs repair and replacement. We simply cannot allow this 
essential infrastructure to deteriorate further. If we do, we 
are going to be forced to spend more when a crisis occurs, and 
the longer we delay, the more expensive it will become to fix.
    The President's budget also provides an increase of nearly 
$68 million for climate and air-quality-related initiatives, 
which I support. We should be investing in programs that build 
climate resiliency and reduce the impacts of extreme weather 
events. I especially appreciate EPA's plans to help communities 
integrate climate adaptation policies to help them address our 
changing climate and plan for the future.
    In addition, the President's budget increases funding by 
nearly $40 million for the cleanup of Superfund and brownfield 
sites across the nation. These are vital programs for 
protecting human environmental health, while also creating jobs 
and improving the economy. As of March 1st, brownfields 
programs have created more than 100,000 jobs and in the first 2 
months of this year have revitalized over 4500 acres of land.
    While I appreciate EPA's efforts, the remaining Superfund 
and brownfields sites are becoming more complicated to clean 
up, and with limited resources, the time and cost to complete 
this work is extended significantly. With so many people living 
near contaminated sites, we must continue providing robust 
support for these programs. Cleanup of these sites transforms 
from liabilities to assets that generate needed revenues and 
economic opportunity.
    Finally, I would like to voice one area of concern: 
proposed cuts to the BEACH Act Grant Program. As someone 
elected to represent part of the Jersey shore, I understand the 
importance of protecting and improving the quality of our 
beaches and their importance to local economies. I am 
disappointed that, once again, the budget eliminates funding 
for this critical program, and I am troubled by EPA's 
unwillingness to prioritize funding to fight water-borne 
pathogens of pollution that affect coastal recreation. This 
program deserves continued support, and I will work with my 
colleagues to ensure adequate funding.
    But, again, I look forward to the Administrator's 
testimony.
    Thank you, and I yield back.
    [The prepared statement of Mr. Pallone follows:]

             Prepared statement of Hon. Frank Pallone, Jr.

    Thank you, Administrator McCarthy, for being here today to 
discuss the Environmental Protection Agency's programs and 
budget. EPA's work is critically important to protecting the 
health of our communities and our environment.
    The President's FY 2017 Budget funds the EPA at $8.627 
billion- a modest increase of $127 million from the FY 2016 
enacted level. This also adheres to the funding level approved 
as part of the bipartisan budget agreement in October. I 
support this increase, but it is important that we all 
recognize that far more resources are needed to properly 
address all of the environmental issues facing our nation 
today. A clean environment is essential to public health and to 
a strong economy.
    It's also important to recognize that EPA's budget 
represents a small portion of the overall federal budget--less 
than one quarter of one percent. We should also remember that 
EPA shares over 40 percent of its funding with the states and 
tribes to help them implement federal environmental laws and 
achieve national goals. These funds support local economies and 
communities big and small.
    The recent drinking water crises across the nation 
demonstrate how important it is to invest in our drinking water 
systems. I commend the President for increasing the Drinking 
Water State Revolving Fund (SRF) by nearly $160 million. Our 
drinking water systems need more funding to help provide clean 
and safe drinking water to communities. While I am happy to see 
this funding increase, I must re-iterate that so much more is 
needed. The Drinking Water SRF has been underfunded for years. 
According to EPA's most recent Needs Survey, $385 billion is 
needed over the next 20 years to modernize and repair our 
drinking water systems. We should be working together to make 
these critical investments to ensure the health of our 
communities. We have reached a point where essential water and 
waste infrastructure needs repair and replacement. We simply 
cannot allow this essential infrastructure to deteriorate 
further. If we do, we are going to be forced to spend more when 
a crisis occurs. The longer we delay, the more expensive it 
will become to fix.
    The President's Budget also provides an increase of nearly 
$68 million for climate and air quality-related initiatives, 
which I support. We should be investing in programs that build 
climate resiliency and reduce the impacts of extreme weather 
events. I especially appreciate EPA's plans to help communities 
integrate climate adaptation policies to help them address our 
changing climate and plan for the future.
    In addition, the President's Budget increases funding by 
nearly $40 million for the clean-up of Superfund and Brownfield 
sites across the country. These are vital programs for 
protecting human and environmental health, while also creating 
jobs and improving the economy. As of March 1, the Brownfields 
program has created more than 100,000 jobs, and, in the first 
two months of this year, has revitalized over 4,500 acres of 
land.
    While I appreciate EPA's efforts, the remaining Superfund 
and Brownfield sites are becoming more complicated to clean-up 
and with limited resources, the time and cost to complete this 
work is extended significantly. With so many people living near 
contaminated sites, we must continue providing robust support 
for these programs. Cleanup of these sites transforms them from 
liabilities to assets that generate needed revenues and 
economic opportunity.
    Finally, I'd like to voice one area of concern-proposed 
cuts to the BEACH Act Grant Program. As someone elected to 
represent part of the Jersey Shore, I understand the importance 
of protecting and improving the quality of our beaches and 
their importance to local economies. I am disappointed that, 
once again, your budget eliminates funding for this critical 
program, and I'm troubled by EPA's apparent lack of concern 
over potential for waterborne pathogens or pollution affecting 
coastal recreation and public health. This program deserves 
continued support, and I will work with my colleagues to ensure 
adequate funding.
    I look forward to hearing your testimony, Administrator 
McCarthy. Thank you.

    Mr. Whitfield. The gentleman yields back.
    At this time the Chair recognizes the chairman of the full 
committee, Mr. Upton, for 5 minutes.

   OPENING STATEMENT OF HON. FRED UPTON, A REPRESENTATIVE IN 
              CONGRESS FROM THE STATE OF MICHIGAN

    Mr. Upton. Administrator McCarthy, welcome back. We look 
forward to our discussion on EPA's proposed 2017 budget.
    I know that the agency has an ambitious agenda that it 
would like to put in place before the President's tenure in the 
White House is completed, but the EPA should focus, I believe, 
its efforts less on finalizing a wave of new regs and more on 
getting back to the basic functions for which the agency was 
created.
    Improving public health by ensuring the quality of the air 
we breathe and the safety of our drinking water supply, that is 
the reason Republicans and Democrats came together in 1970 and 
created the EPA. It was also the reason Congress passed many 
bipartisan public health bills, like the Clean Air Act and the 
Safe Drinking Water Act, for the agency to administer.
    However, the heartbreaking events unfolding in Flint are a 
sign that perhaps the EPA has strayed from its core mission. 
Make no mistake, the system failed at all levels that resulted 
in the lead contamination problems with Flint's water supply. 
It is clear to me that EPA's poor performance of its duties 
under the Safe Drinking Water Act were, in fact, part of the 
problem.
    I hope that, in the same bipartisan spirit that launched 
EPA in 1970, that we can rededicate ourselves to the basic 
public health protections that are the reasons that this agency 
was brought into existence, the most recent example being our 
bipartisan work to strengthen the public disclosure 
requirements in the Safe Drinking Water Act. Not only was it a 
step in the right direction, more importantly, I hope that it 
provides the reset needed at the agency to focus it on doing 
the tasks assigned to it under the Safe Drinking Water Act, 
including compliance and verification activities.
    What we are doing now will not prevent damage in Flint, but 
we owe it to the people of Flint, as well as other communities 
across the country that may face lead-contaminated water 
supplies, to sharpen EPA's oversight role in protecting public 
health.
    I know many people in D.C. are eager to lay blame on one 
political party or another when disasters like Toledo, Gold 
King Mine, Flint threaten a community's drinking water. 
Regardless of who is responsible, we need to address the crises 
that those people face.
    I am interested in being part of the solution, and I know 
that you, also, want to be part of the solution. It is going to 
take creative solutions, and surely there will be challenges. I 
know that we can put our heads together and put a greater 
emphasis on problem-solving and doing right by the American 
people, rather than playing the blame game. And that is 
certainly my perspective.
    While we are talking about places where we can and should 
be working together, I want to follow up on what John Shimkus 
indicated with our committee's reform efforts for the Toxic 
Substances Control Act, or TSCA. As you know, we worked very 
hard to put together a bipartisan bill that addresses legal 
shortcomings in the law. I know that your agency would like to 
see reform occur in this Congress. I look forward to your 
support in helping it get to the President's desk. We look 
forward to working constructively with you.
    And I yield back the balance of my time.
    [The prepared statement of Mr. Upton follows:]

                 Prepared statement of Hon. Fred Upton

    I know that the agency has an ambitious agenda it would 
like to put in place before President Obama's tenure in the 
White House is completed. But the EPA should focus its efforts 
less on finalizing a wave of new regulations and more on 
getting back to the basic functions for which the agency was 
created.
    Improving public health by ensuring the quality of the air 
we breathe and the safety of our drinking water supply--that's 
the reason Republicans and Democrats came together in 1970 and 
created the Environmental Protection Agency. It was also the 
reason Congress passed many bipartisan public health bills like 
the Clean Air Act and Safe Drinking Water Act for the agency to 
administer.
    However, the heartbreaking events unfolding in Flint, 
Michigan, are a sign that EPA has strayed from its core 
mission. Make no mistake, the system failed at all levels that 
resulted in the lead contamination problems with Flint's water 
supply, but it is clear that EPA's poor performance of its 
duties under the Safe Drinking Water Act was a part of the 
problem.
    I hope that in the same bipartisan spirit that launched EPA 
in 1970 that we can rededicate ourselves to the basic public 
health protections that are the reasons this agency was brought 
into existence. The most recent example being our bipartisan 
work to strengthen the public disclosure requirements in the 
Safe Drinking Water Act. This was not only a step in the right 
direction, but perhaps more importantly, I hope it will provide 
the reset needed at the agency to focus it on doing the tasks 
assigned to it under the Safe Drinking Water Act, including 
compliance verification activities. What we are doing now will 
not prevent damage in Flint, but we owe it to the people of 
Flint, as well as other communities that may face lead 
contaminated water supplies, to sharpen EPA's oversight role in 
protecting public health.
    I know many people in Washington are eager to lay blame on 
one political party or the other when disasters like Toledo, 
Gold King Mine, or Flint threaten a community's drinking water. 
Regardless of who is responsible, we need to address the crises 
those people face. I am interested in being part of the 
solution and want you to know, Administrator McCarthy, that you 
should look to us as a partner in providing better drinking 
water to Americans. It is going to take creative solutions and 
there will surely be challenges, and I hope we can put our 
heads together and put a greater emphasis on problem solving 
and doing right by the American people rather than playing the 
blame game.
    While we are talking about places where we can, and should, 
be working together, I also want to mention our committee's 
reform efforts for the Toxic Substances Control Act. As you 
know, the House has worked very hard to put together a bill 
that addresses the legal shortcomings in the law. I know the 
agency would like to see reform occur this Congress, I look 
forward to your support in helping us get it to the president's 
desk.
    This committee looks forward to working constructively with 
EPA, and I hope that this final year for the administration is 
one that offers many such opportunities.

    Mr. Whitfield. The Chair recognizes the gentleman from 
California, Mr. McNerney, for 5 minutes.

 OPENING STATEMENT OF HON. JERRY MCNERNEY, A REPRESENTATIVE IN 
             CONGRESS FROM THE STATE OF CALIFORNIA

    Mr. McNerney. Well, thank you, Mr. Chair.
    The EPA plays an important role in our society in 
protecting our citizens and our environment. Safe and clean 
drinking water has recently risen to the headlines because of 
the discovery of pipes corroded by using contaminated water in 
Flint, Michigan. This water has permanently harmed their 
children and shaken people's trust in our public services. This 
type of occurrence will become more common if we fail to invest 
in our failing infrastructure or if we fail to invest in the 
means to monitor our safe drinking water. Clean and safe 
drinking water should be a guarantee for every American. It is 
not only irresponsible, but criminal to withhold funds and 
resources to protect lives.
    The EPA also has a significant responsibility to fight 
climate change. Climate change is considered a contributing 
factor to crop failures and droughts in the Middle East and the 
African Sahel. Climate change is causing weather patterns to 
bring super-storms such as Sandy and Katrina. The evidence for 
climate change is dramatic and growing.
    The EPA has the experience and science to help us push back 
on climate change, and they are working on lowering carbon 
emissions and developing clean energy sources. We need reliable 
and resilient grid that we can depend upon. And I am going to 
take this opportunity to recommend to my coal state colleagues 
to embrace carbon sequestration before the coal industry 
collapses entirely.
    Climate change is also affecting people's health across the 
globe. Unchecked climate change could lead to 6 million to 7.9 
million acres of forest being destroyed by wildfires at a cost 
of $940 million to $1.4 billion. It could also lead to the 
destruction of ecosystems, such as coral reefs that support 
economic activity, including 35 percent of the coral reefs in 
Hawaii, at an economic loss of $1.2 billion.
    Both clean water and climate change are huge issues, but 
ones I am confident the EPA can address and ensure that 
American lives are protected.
    Now I know my colleagues would like to greatly reduce or 
eliminate the EPA, but what would we have without the EPA? If 
you have doubts, just visit Beijing or Kolkata, and you will 
find out.
    Thank you, Mr. Chairman. I yield back.
    Mr. Whitfield. The gentleman yields back.
    And that concludes the opening statements. And so, at this 
time, Ms. McCarthy, I would recognize you for 5 minutes for 
your opening statement.
    Be sure to turn the microphone on and get it real close.

 STATEMENT OF GINA MCCARTHY, ADMINISTRATOR, U.S. ENVIRONMENTAL 
                       PROTECTION AGENCY

    Ms. McCarthy. Thank you so much.
    Mr. Whitfield. Thank you.
    Ms. McCarthy. Thank you, Chairman Whitfield, Chairman 
Shimkus, Chairman Upton, Ranking Member Tonko, Ranking Member 
Pallone, and all the members of the subcommittee. Thank you for 
the opportunity to appear before you to discuss EPA's proposed 
fiscal year 2017 budget. I am joined today by the agency's 
Deputy Chief Financial Officer, David Bloom.
    EPA's budget request of $8.267 billion for the 2017 fiscal 
year lays out a strategy to ensure steady progress in 
addressing environmental issues that affect public health. For 
45 years, our investments to protect public health and the 
environment have consistently paid off many times over. We have 
cut air pollution by 70 percent and cleaned up half of our 
nation's polluted waterways. All the while our national economy 
has tripled.
    Effective environmental protection is a joint effort of the 
EPA, states, and by tribal partners. That is why the largest 
part of our budget, $3.28 billion, or almost 40 percent, is 
provided directly to our state and tribal partners.
    In fiscal year 2017, we are requesting an increase of $77 
million in funding for state and tribal assistance categorical 
grants in support of critical state work in air and water 
protection, as well as continued support for our tribal 
partners.
    This budget request also reinforces EPA's focus on 
community support by providing targeted funding and support for 
regional coordinators to help communities find and determine 
the best programs to address local environmental priorities.
    The budget includes $90 million in brownfields project 
grants to local communities. That is an increase of $10 
million, which will help to return contaminated sites to 
productive reuse.
    This budget prioritizes actions to reduce the impacts of 
climate change and support the President's Climate Action Plan. 
It includes $235 million for efforts to cut carbon pollution 
and other greenhouse gases through common-sense standards, 
guidelines, and voluntary programs.
    The EPA's Clean Power Plan continues to be a top priority 
for the EPA and for our nation's inevitable transition to a 
clean energy economy. Though the Supreme Court has temporarily 
stayed the Clean Power Plan Rule, states are not precluded from 
voluntarily choosing to continue implementation planning. And 
EPA will continue to assist states that voluntarily decide to 
do so.
    As part of the President's 21st Century Clean 
Transportation Plan, the budget also proposes to establish a 
new mandatory fund for the EPA, providing $1.65 billion over 
the course of 10 years to retrofit, replace, or repower diesel 
equipment and up to $300 million in fiscal year 2017 to renew 
and increase funding for the Diesel Emission Reduction Grant 
Program.
    The budget also includes a $4.2 million increase to enhance 
vehicle engine and fuel compliance programs, including critical 
testing capabilities.
    We also have to confront the systemic challenge that 
threatens our country's drinking water and the infrastructure 
that delivers it.
    This budget includes a $2 billion request for the State 
Revolving Loan Fund and $42 million in additional funds to 
provide technical assistance to small communities, loan 
financing to promote public/private collaboration, and training 
to increase the capacity of communities and states to plan and 
finance drinking water and wastewater infrastructure 
improvements.
    The EPA requests $20 million to fund the Water 
Infrastructure Finance and Innovation Act, our WIFIA program, 
which will provide direct financing for the construction of 
water and wastewater infrastructure by making loans for large, 
innovative projects of regional or national significance.
    This budget also provides $22 million in funding to expand 
the technical, managerial, and financial capabilities of 
drinking water systems. Included is $7.1 million for the Water 
Infrastructure and Resilience Finance Center and the Center for 
Environmental Finance that will enable communities across the 
country to focus on financial planning for upcoming public 
infrastructure investments, expand work with states to identify 
financing opportunities, in particular for rural communities, 
and enhance partnership and collaboration with the U.S. 
Department of Agriculture.
    EPA is also seeking a $20 million increase to the Superfund 
Remedial Program, which will accelerate the pace of cleanup, 
supporting states, local communities, and tribes in their 
efforts to assess and clean up sites and return them once again 
to productive reuse.
    EPA's fiscal year 2017 budget request will let us continue 
to make a real and visible difference to communities and public 
health every day and provide us with a foundation to revitalize 
the economy and improve infrastructure across the country.
    Thank you for the opportunity to testify today, and I look 
forward to answering your questions.
    [The prepared statement of Ms. McCarthy follows:]
    
    
    
   [GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]
 
       
    Mr. Whitfield. Thank you, Ms. McCarthy. We appreciate that 
statement.
    And I will recognize myself for 5 minutes to get started 
here.
    Soon after the Supreme Court issued the stay on the Clean 
Energy Plan, I was reading an article and it said that in a 
letter you said that the rule had been suspended and has no 
legal force, the rule being the Clean Energy Plan. I was 
curious, who did you write that letter to? Was that letter sent 
to all the states or was this a letter that just was an 
interagency letter to members that work at EPA and colleagues?
    Ms. McCarthy. I don't know which letter you are referring 
to.
    Mr. Whitfield. It says, ``While Administrator McCarthy has 
suggested that her agency will continue to provide tools and 
outreach to states, none of these efforts by EPA should be 
perceived as requiring states to act. The rule has been 
suspended and has no legal force,'' the letter stated.
    So, did you send the letter to the states saying that the 
rule has been suspended and has no legal force?
    Ms. McCarthy. That would be an accurate statement, sir, and 
I assume that I did notice people, but I don't know which 
particular letter. I just don't recall.
    Mr. Whitfield. So, you don't recall? You don't recall 
sending out a letter? You don't recall sending a letter to the 
states?
    Ms. McCarthy. I certainly have said that in person and in 
letters to a number of individuals explaining that there is a 
stay in place and EPA won't be implementing or enforcing the 
law, and that it has to work through the courts, but we would 
certainly continue to work voluntarily with states that 
voluntarily want to continue----
    Mr. Whitfield. But you don't recollect yourself sending a 
letter to the states saying that?
    Ms. McCarthy. I actually believe that I did, sir, but 
reading a portion of it doesn't give me complete enough 
recollection to be able to confirm it positively.
    Mr. Whitfield. Well, did you send a letter to every----
    Ms. McCarthy. I did send a letter to states letting them 
know what happened, yes, sir.
    Mr. Whitfield. OK. OK. Now, prior to the Supreme Court 
stay, each state was expected, by September of this year, to 
submit a State Implementation Plan to EPA, is that correct?
    Ms. McCarthy. That is correct, yes.
    Mr. Whitfield. And have they been notified that that State 
Implementation Plan is no longer expected by September?
    Ms. McCarthy. I believe everybody is aware of that, yes, 
sir.
    Mr. Whitfield. OK. And now, Ms. McCabe has talked a lot 
about, and you have also, saying you are working with states 
that want to proceed. How many states would that be?
    Ms. McCarthy. Well, we are certainly working with many 
states. Every day that changes. I know that 25 or so states 
have indicated publicly that they are doing some portion of 
planning and continuing to think about it. But many states 
understand that there is a transition in the energy world right 
now and that the Clean Power Plan is on hold, but it is going 
to be looked at on its merits, and they are continuing to think 
about----
    Mr. Whitfield. But they can do the transition without the 
Clean Energy Plan, correct?
    Ms. McCarthy. Well, the energy transition is happening 
regardless of that, yes.
    Mr. Whitfield. Yes, I mean, it is all about pricing 
primarily.
    Ms. McCarthy. Right.
    Mr. Whitfield. But two component parts that Ms. McCabe 
keeps stressing is the Clean Energy Incentive Program and the 
Model Rules. Those are an integral part of the Clean Energy 
Plan. Without those, the Clean Energy Plan would not be very 
effective. Would you agree with that?
    Ms. McCarthy. No, sir. The Clean Power Plan actually is a 
rule that is moving forward on its own through the courts. The 
Model Rule was something that the states suggested that we do 
for them, and part of the Model Rule is how the states might 
handle the CEIP. So, both of those are related, and those are 
efforts that the states have asked us to do separate, and also 
related, but on its own separate.
    Mr. Whitfield. Well, she refers to those as two key pieces, 
the Clean Energy Incentive Program and the Model Rules, key 
pieces. But she says it will be done consistent with the Court 
ruling.
    Ms. McCarthy. Yes.
    Mr. Whitfield. How do you determine that it is consistent 
with the Court ruling?
    Ms. McCarthy. Well, the Clean Energy Incentive Plan is part 
of the Clean Power Plan as it stands that the Court is going to 
look at. Separate from that, there is a question of how states 
might look at the Model Rule and how that might be also an 
opportunity to take comment on it and look more specifically at 
how states might look at their Clean Energy Incentive Program.
    So, those are being done for the benefit of the states' 
understanding, and it is being done at the request of states 
that voluntarily want to think about how they might comply and 
think about the planning process.
    Mr. Whitfield. Might comply with what?
    Ms. McCarthy. Might think about complying consistent with 
the Clean Power Plan, but it is not an underlying rule of the 
plan. It is all voluntary and it is the states asking us to 
help them as they are doing their voluntary planning moving 
forward.
    Mr. Whitfield. My time has expired.
    At this time I recognize the gentleman from New York, Mr. 
Tonko, for 5 minutes.
    Mr. Tonko. Thank you, Mr. Chair.
    And thank you again, Administrator McCarthy, for being here 
today.
    The fiscal year 2016 Omnibus included $863 million for the 
Drinking Water SRF, which was a $44 million decrease from 
fiscal year 2015. So, I was grateful that the administration 
has recognized a critical need to invest in our drinking water 
systems by increasing its request by $158 million for this 
year. But can you please explain the relationship between the 
Clean and Drinking Water SRFs?
    Ms. McCarthy. Yes. I mean, both of those are SRF programs. 
One manages our wastewater system, the other our drinking water 
system. We tend to look at them together, but we also tend to 
look at what the outstanding needs are in both. Clearly, both 
of them are necessary for clean drinking water, let's make that 
clear, and rivers and streams that are clean.
    But, when we looked back at what the demand was for each 
over a period of time, looking out to 2030, we realized that 
drinking water at this point is in dire need of additional 
assistance, and we balanced that in terms of how we are looking 
at both in this budget.
    Mr. Tonko. So, you acknowledge, then, that there is this 
flexibility to shift funds between the two SRFs in order to 
address their specific needs, is that right?
    Ms. McCarthy. They have that opportunity to be able to 
shift as well. There is quite a bit of flexibility in terms of 
the use of both funds.
    Mr. Tonko. Yes, and it is why I am disappointed to see the 
$1 billion request for drinking water was at the expense of 
over a $400 million decrease in clean water. The combined total 
is some $250 million less than last year's enacted level, and 
even worse when compared to the last budget request.
    So, can you explain the decision to offset the drinking 
water increase with the clean water? I know you are concerned 
for, obviously, having to grow the one account, but, overall, 
it appears as though there is a dire need to have very robust 
funding.
    Ms. McCarthy. Yes. I think there needs to be a very serious 
and larger conversation about this, as I am sure you would 
agree, overall. Our challenge was to meet the funding levels 
that were in the bipartisan Budget Act of 2015. So, we didn't 
have an opportunity to look for significant new funding.
    Every time those numbers are increased, it is at the 
expense of EPA's operating budget. Frankly, with a budget that 
is only looking for a 2-percent bump-up, it will be very hard 
for the agency to continue operating at an efficient and 
successful level if we have to continue to look at significant 
more investment within our budget for those activities.
    Mr. Tonko. Right, which speaks to the role of Congress 
here, as we control the purse strings. It appears as though we 
have to do a much more robust effort for our water issues.
    While I understand the budgets are tight, robbing Peter to 
pay Paul doesn't seem to be the appropriate solution. I am sure 
you would agree that both drinking and wastewater systems, as 
you are indicating, need additional federal support. And so, we 
must ensure that both are adequately funded.
    As I mentioned earlier, the EPA estimates that there is 
this 20-year capital needs level of some $384 billion. This 
estimate has increased in each report since 1995, and I would 
guess the next estimate will follow that trend. So, we have 
spent 20 years funding the SRF between $800 million and $1 
billion. This request appears to be much of the same.
    I have heard from the mayors in my district, from town 
supervisors in my district, that cash-strapped local government 
simply cannot come up with the financing on their own. And I 
have had tremendous glaring examples of painful consequences of 
underfunding.
    The Administrator of the EPA does a lot of work with state 
and local governments. In your experience, will we make 
significant progress in closing this $384 billion gap by 
maintaining the current federal funding levels?
    Ms. McCarthy. No, it doesn't even come close or consider 
the fact that we are looking at new, emerging contaminants that 
simply won't be resolved through the technologies we have in 
hand.
    Mr. Tonko. And do you believe that a more lucrative, a more 
robust, sustained commitment is needed to reduce the 
infrastructure project backlog that exists?
    Ms. McCarthy. I think there needs to be a much larger 
conversation about how you can start investing in a way that is 
commensurate with the challenge and the core needs of our 
communities and families.
    Mr. Tonko. I thank you for that.
    Earlier I had mentioned the AQUA Act that I have 
introduced. It is driven by the Recovery Act funding levels. 
And so, that defines our first-year commitment in that 
legislation of $3.1 billion and, then, ramping up to $5.5 
billion. Again, we would call for tremendously-focused 
attention to the water infrastructure in this country.
    I thank you, Administrator McCarthy, for, again, responding 
in a way that I think is deeply rooted in commitment to helping 
our state and local governments.
    Mr. Chair, I hope this is an issue that we can continue to 
investigate to ensure communities across this nation are 
getting support to meet their public health, public safety, and 
infrastructure needs, all very important. I think some of the 
flare-ups we have seen across this nation in all geographic 
regions remind us that our work is far from done.
    So, with that, I will yield back.
    Mr. Whitfield. The gentleman's time has expired.
    At this time I recognize the gentleman from Illinois, Mr. 
Shimkus, for 5 minutes.
    Mr. Shimkus. Thank you, Mr. Chairman.
    So, again, welcome, Administrator.
    The good news is we got your letter today in response to 
statements for the record from Acting Assistant Administrator 
McCabe, who testified before us in October. The bad news is 
they create some more questions. And so, I want to read the 
story, and maybe you can help get this clarified for us.
    The basis of my questions in the statement for the record 
was to ask about the Regulatory Impact Analysis that was used 
to promulgate the CO<INF>2</INF> regulations. So, throughout 
the transcript, I continue to kind of push McCabe on give us 
how you calculated how many power plants would be operating, 
because if you are going to do a Regulatory Impact Analysis and 
the cost, basic Economics 101 says supply and demand. There is 
a 31-gigawatt difference between the Energy Information Agency 
and what this Regulatory Impact Analysis says from your agency.
    So, we were hoping that, for the record, we would get back 
what was the formula that the EPA used to calculate the amount 
of power plants that were going to be decommissioned. What we 
got was a statement. The EPA discussed the assumptions 
underlying each of these projections in the Regulatory Impact 
Analysis accompanying the final Clean Power Plant.
    So, the questions I asked to be clarified using the 
Regulatory Impact Analysis were responded by a letter that says 
refer to the Regulatory Impact Analysis. If you could help us 
get the real data and a better answer, I would appreciate that.
    Ms. McCarthy. Mr. Chairman, I will do the very best I can 
to answer your questions today or to provide you followup on 
it.
    Mr. Shimkus. Yes. I mean, it is just the bottom line is, if 
you have lost 70 power plants, that does have an effect on----
    Ms. McCarthy. Yes.
    Mr. Shimkus. And we just want to find out how you all 
figured that out versus the Energy Information Agency. And so, 
we are glad you got that letter to us punctually. Otherwise, I 
would have had to send another letter. So, thank you.
    Since we have talked about TSCA a little bit, as you know, 
we are hoping to get something to the President. There are 
three questions. Do you have any idea what it might cost you to 
assess 10 chemicals in a given year? This is what we need. So, 
10 or 20. And then, really, the third question is, did you 
consider what would be a budget baseline for operating a 
reformed TSCA program and if fees were capped at $18 million 
per year? We are trying to get an idea of, if there are fees, 
what are your costs? Are they in the ballpark and stuff?
    Ms. McCarthy. Well, that is well within the range of the 
technical information that both you and Congressman Pallone 
have been asking for. I am more than happy to support, to 
provide you with whatever information I can.
    Mr. Shimkus. Thank you. Thank you very much.
    And I am glad you mentioned Ranking Member Pallone. He has 
been very, very helpful on movement of this, and we are hopeful 
we will get to some agreement in the future.
    My last question, because I have a minute-and-a-half left, 
is I did mention in my opening statement Superfund cleanup, 
CERCLA. Has the ratio of administrative cost to cleanup cost 
changed over the last few years and, if so, how?
    My big concern is always we have the Superfund. A lot of it 
goes for the administration and the litigation cost. What is 
the ratio between that portion of the fund and actual cleanup 
cost?
    Ms. McCarthy. Yes.
    Mr. Shimkus. And do you know if there has been any 
significant change in that? I want money to go to cleanup more 
than bureaucracy.
    Ms. McCarthy. I don't know the answer, but we will 
certainly follow up.
    Mr. Shimkus. OK. Thank you.
    Since I have 45 seconds left, I will yield back my time and 
thank the chairman.
    Mr. Whitfield. The gentleman yields back.
    At this time the Chair recognizes the gentleman, Mr. 
McNerney of California, for 5 minutes.
    Mr. McNerney. Thanks for indulging and confusing, Mr. 
Chairman.
    [Laughter.]
    Administrator McCarthy, I know the EPA is working to deal 
with drought issues.
    Ms. McCarthy. Yes.
    Mr. McNerney. Of course, I am from California. We know 
about drought.
    Can you explain some of the ways that EPA is working to 
address drought through technology and innovation?
    Ms. McCarthy. Yes, sir. We are working pretty hard through 
our National Resilience effort. We are working with other 
agencies to develop tools that communities can use to identify 
both what the drought challenge is and a variety of tools in 
which they can design systems more effectively. Those are 
everything from stormwater to their drinking water systems, 
looking at potential impacts, keeping our communities safe, 
making sure that our water and wastewater facilities are 
operating correctly. And so, we have a variety of tools that we 
work with.
    We also have people that go to the communities. We have 
regional folks that go to communities and work with them and 
try to help design solutions, so they can manage the kind of 
adaptive behavior that they need to have in a changing climate.
    Mr. McNerney. Do you believe that California can become 
regionally self-sufficient? In other words, different parts of 
California can become water self-sufficient ultimately?
    Ms. McCarthy. There are smarter people in California than I 
that know the answer to that question. But I know that we are 
available to work with anyone in California that wants to roll 
up their sleeves and look at this issue.
    Mr. McNerney. Thank you.
    I have been a proponent of water use efficiency, and it is 
important, especially considering threats to our water supply, 
for us to protect our water sources and to conserve our water 
supply. One program that aims to help communities conserve 
water and promote long-term sustainable infrastructure is the 
WaterSense Program. Can you please describe some of the 
successes of the WaterSense Program?
    Ms. McCarthy. Well, I am more than happy to supply you with 
a lot.
    But WaterSense is beginning to be seen, and it has been 
used in California, as a really good opportunity. Basically, it 
does the boring work of water conservation. It allows you to 
take a look at where your water is going, how much it costs, 
where it is leaking, and how do you take advantage of that, 
everything from how you can conserve in a household to how you 
can look at it from a systems approach, from a community or a 
region. So, we have some really dedicated people that are doing 
great work at all levels on WaterSense.
    Mr. McNerney. Well, moving on, the gas leak in California 
has raised the public awareness of how gas is leaking into the 
environment. I know it is not exactly related, but do you 
believe there is sufficient data related to loss and 
accountable gas, so that we understand how much gas is actually 
leaking into the environment across the country?
    Ms. McCarthy. Actually, we have been learning recently, 
most recently, through our last Greenhouse Gas Inventory how 
little we actually have known about the methane leaks in our 
oil and gas sector in our pipelines. We are getting educated. 
It is more than we ever thought before, but there clearly needs 
to be a continued effort to gather information. We fully intend 
to do that.
    Mr. McNerney. So, what do we have to do to get a hold of 
this and to stop the leakage or to reduce the leakage?
    Ms. McCarthy. Well, we have announced that we are actually 
going to put out an information collection request to the 
industry to get information from the oil and gas sector, in 
particular. And then, the challenge will be what are the cost-
effective and available technologies that can reduce those 
leaks, look at the operating practices that need to be done 
differently to maintain those.
    But the good news about methane, in particular, and natural 
gas is that it is a product that is leaking, not a byproduct. 
And so, the more you can capture it, the more it is a very 
cost-effective way to do business.
    Mr. McNerney. There is an economic driver, in other words?
    Ms. McCarthy. Yes, that's right.
    Mr. McNerney. Very good.
    So, what is the current state of carbon sequestration?
    Ms. McCarthy. Carbon sequestration is available. It 
continues to be something that we are going to be relying on 
more and more. The Department of Energy has a robust program 
that is looking at carbon sequestration as well as use in 
sequestration. It is being utilized in a number of facilities 
in the U.S. We would like it to be more used. We would like the 
cost to go down considerably as it is being used, so that it 
becomes more and more available. It is most cost-effective when 
it is joined with enhanced oil recovery. That is when you have 
a good system or when it is used to actually produce chemicals.
    Mr. McNerney. So, can we save the coal industry with carbon 
sequestration?
    Ms. McCarthy. I actually think that carbon sequestration is 
going to be important, not just domestically, but, clearly, 
internationally. Coal is going to be around, whether it is in 
the U.S. or it is in other countries. And it is important for 
us to have technologies that can allow coal to continue to be 
part of the energy system.
    Mr. McNerney. Thank you.
    Mr. Chairman, I yield back.
    Mr. Whitfield. The gentleman yields back.
    We do have a series of four votes on the floor. But, before 
we go, I am going to get Mr. Upton and Mr. Pallone. And then, 
once they complete, we will try to come back here at 3:30 to 
give everyone else an opportunity to ask questions.
    Ms. McCarthy. Yes, sir.
    Mr. Whitfield. Mr. Upton, you are recognized for 5 minutes.
    Mr. Upton. Great. And thank you, Mr. Chairman.
    Again, Ms. McCarthy, we are glad that you are here today.
    I want to thank you just real quickly for your support of 
the bill that we passed. Every member of this committee 
supported it on the House floor, H.R. 4470, which did pass 416-
to-2, to try to clear up the confusion and close the gaps when 
communities like Flint are known. We are hoping that that gets 
to the President's desk in some form when it comes back from 
the Senate.
    A couple of questions. We are going to have a hearing in 
two of our subcommittees together next month that really looks 
to the future on this issue, not pointing fingers. It is my 
understanding that we are working with your Assistant 
Administrator for Office of Water, Joel Beauvais----
    Ms. McCarthy. Yes.
    Mr. Upton [continuing]. To be our EPA person who is going 
to come testify.
    A question that I had for you, a couple of questions as it 
relates to the future, I know in the Protecting America's 
Waters book, I will read you briefly, it says, ``In FY 2017, 
the EPA will begin to fund WIFIA projects. EPA expects that 
entities with large-scale, complex water and wastewater 
projects will be attracted to WIFIA through the EPA....will 
work to provide assistance through a diverse set of projects.''
    How many communities do you think may apply for funds once 
that program is out?
    Ms. McCarthy. Yes, we are requesting $20 million----
    Mr. Upton. Right.
    Ms. McCarthy [continuing]. Fifteen of which would be used 
for leveraging opportunities. It is not clear to me how many 
that would----
    Mr. Upton. Fifty communities? Thirty? Twenty?
    Ms. McCarthy. It depends upon the size.
    Mr. Upton. Any idea? Will there be some accommodation for 
rural areas, I mean some setaside for rural communities that 
are under 100,000 population?
    Ms. McCarthy. Yes, we haven't yet determined that, sir. I'm 
sorry.
    Mr. Upton. OK.
    Ms. McCarthy. But I am happy to take your comments or 
concerns about that, if you would like me to.
    Mr. Upton. Yes. I know that you are working on a new Copper 
and Lead Rule. What is your expectation as to when that will be 
ready to be put out for comment?
    Ms. McCarthy. We would like it to be done as soon as 
possible, but I think the tragedy in Flint has made it very 
clear to us that we have to tackle this in a substantive way. 
So, our goal is to get a rule both proposed and finalized next 
fiscal year.
    Mr. Upton. As you look at the entire country, how many 
communities--I know Flint is in terrible distress over what 
happened. I would hope that there are no other communities in 
that same position. But how many communities do you think or 
how many states have communities like that that are in need of 
resources that could replace some of their lead lines to their 
residents? How widespread of a problem is that? We have seen 
stories in different publications. USA Today has had some good 
ones in the last number of days in terms of communities. What 
would your estimate be?
    Ms. McCarthy. Let me give you a sense of this. I want to 
make sure I answer your question. There are about 68,000 public 
water systems that have to report to us under the Lead and 
Copper Rule. About 96 percent of those have had no exceedances 
of the action level over the past three years.
    So, what I am trying to do is, I think Flint is unique, but 
I think there are challenges in communities. One of the things 
that I did was to write to every governor and to write to every 
what we call the primacy agency, the agency that is responsible 
for that at the state level, to ask them to do a few things; to 
get back to us to make sure that they are following and 
implementing the current statute; to ask them to identify where 
their lead lines are publicly and put it on the web; to start 
publishing their results----
    Mr. Upton. And that is a little bit of a requirement that 
we had in our bill, right, H.R. 4470, if you found a problem, 
right? You would do that?
    Ms. McCarthy. That is exactly right. That is exactly the 
same thing. Because one of the things we realize is, with Flint 
happening, you are right, it is a failure of government----
    Mr. Upton. Knowing that my time is expiring, and I want to 
let Mr. Pallone have the balance before these votes, do you 
think that it is possible that, when we convene again next 
month, when we have this hearing on looking to the future, do 
you think you will have some of that information available that 
you can provide to us prior to the hearing?
    Ms. McCarthy. We will. We know there is about 10 million 
lead lines, but the challenge is to treat water so that it is 
not corrosive, to systemically get rid of the lead lines, and 
then, to address the lead that is actually in people's plumbing 
fixtures. So, it is a multifaceted challenge, and it is one we 
have to tackle.
    Mr. Upton. Thank you.
    Yield back.
    Mr. Whitfield. The gentleman yields back.
    At this time the Chair recognizes the gentleman from New 
Jersey, Mr. Pallone, for 5 minutes.
    Mr. Pallone. Thank you.
    We have got to be quick because we are going to go vote, 
and I have to cover both Superfund and beaches in one fell 
swoop here.
    Ms. McCarthy. Yes.
    Mr. Pallone. So, on the Superfunds, cleaning up toxic 
Superfund sites not only reduces health risk, it helps create 
jobs during the cleanup and through newly-uncontaminated and 
productive land ready for redevelopment, as you know.
    Unfortunately, Congress has failed to reinstate the 
Superfund tax, leading to fewer resources for the program. In 
fact, the resources have essentially been cut in half over the 
last two decades. Without those revenues, important Superfund 
cleanups have been delayed. The backlog of sites has grown and, 
of course, that shifts it to the taxpayers.
    So, let me ask you first, would you say that the success of 
the Superfund program depends directly on the funding it 
receives?
    Ms. McCarthy. Yes.
    Mr. Pallone. And would more funding, then, mean more 
cleanups?
    Ms. McCarthy. Absolutely. We are requesting an additional 
$20 million, which would get us three to five more started, but 
we certainly have a significant backlog.
    Mr. Pallone. I appreciate that. I think that it is clear 
that the Superfund and brownfields programs show that creating 
jobs and cleaning up the environment are not mutually-
exclusive.
    Now let me get to my beaches questions. Representing a 
coastal district, it has always been one of my top priorities 
to ensure that water at our nation's beaches is not 
contaminated and dangerous for those who visit them to swim, 
surf, and fish. And that is why, as you know, I was 
disappointed to see that the BEACH Act Grant Program has been 
zeroed-out again in the President's budget. States utilize 
these funds to monitor water quality and notify the public when 
our coastal waters are not safe for swimming.
    So, my question is, do you believe EPA's BEACH Grants have 
been successful over the years in expanding the number of 
beaches tested nationwide and keeping swimmers out of 
contaminated waters?
    Ms. McCarthy. Yes, I believe that it has been a good 
program. I think where we have challenges is that it was 
supposed to start up to make sure that communities and states 
have the ability to monitor and do this effectively. We believe 
that that ability is now there, which is why we think in a 
tight budget it is one of the areas in which we can be a little 
bit tighter in terms of----
    Mr. Pallone. Well, you know I disagree because I think that 
a lot of these towns don't have the resources.
    Ms. McCarthy. Right. I know.
    Mr. Pallone. So, I am going to try to work with you and my 
colleagues, as we did last year, to restore this funding----
    Ms. McCarthy. Yes.
    Mr. Pallone [continuing]. that helps address these health 
risks.
    The other issue related is another successful method is 
spotting spilled oil in commercial areas like the New York-New 
Jersey Harbor and collecting it before it damages the 
environment. It was the helicopter. You know that in 2014 EPA 
cancelled the Helicopter Monitoring Program in EPA Region 2, 
but operated it in the summer to monitor the waters in the 
Harbor and to identify debris, oil slicks, and algae blooms. 
Since the Helicopter Monitoring Program was cancelled, how is 
EPA engaging and participating in the Floatables Action Plan in 
the New York and New Jersey Region.
    Ms. McCarthy. We are certainly monitoring the activities 
that both of the states have taken to have boots on the ground 
there, to make sure they see the oil as it occurs and are able 
to address it. And we have a task force that, I think you know, 
we pulled together to make sure that we understand what the 
implications of having disinvested in that helicopter might be, 
if any. So, we want to continue to work with it with you, sir, 
on this issue because I know it is important to you.
    Mr. Pallone. When we spoke about this last year, you said 
that there would be, basically, a web of protection in place to 
guarantee no gaps in coverage with respect to monitoring the 
New Jersey coast. Has the EPA taken some specific actions to 
fill the gaps left by the cancellation of the helicopter?
    Ms. McCarthy. Well, I think we felt that the helicopter at 
this point, because of the actions that the states have taken, 
was not as necessary as it was before. We didn't feel like we 
would be putting the water at risk by not continuing to fund 
it. And so, we do feel that there is a robust system in place.
    Mr. Pallone. See, the problem that I have with both the 
BEACHES Act and the helicopter is that, using New Jersey as an 
example, but I am sure New York is the same, the state and the 
towns and the counties all complain that they have less money 
and that they can't fill the gap. And so, that is why, if there 
was any way, obviously, to get the BEACHES Grants back in place 
or to get the helicopter back in place, and to pay for it 
federally, it would make a big difference. Because I know you 
believe that the states and the localities can make up the 
difference, but I really don't think that is the case.
    Ms. McCarthy. I appreciate that, sir. Thank you.
    Mr. Pallone. Thank you, Mr. Chairman.
    Mr. Whitfield. The gentleman yields back.
    Ms. McCarthy, once again, I apologize for this interlude, 
but I want you to know we have one of the best subway sandwich 
stores in the basement.
    [Laughter.]
    We will be back at 3:30, hopefully.
    Ms. McCarthy. Thank you so much.
    Mr. Whitfield. We will recess until 3:30.
    [Recess.]
    Mr. Whitfield. We will reconvene the meeting and the 
hearing.
    Thank you for your patience, Ms. McCarthy.
    At this time I would like to recognize for 5 minutes the 
gentleman from Texas, the vice chairman of the Energy and Power 
Subcommittee, Mr. Olson.
    Mr. Olson. I thank the Chair.
    And welcome, Ms. McCarthy.
    We have had our disagreements. Some are pretty strong. But 
there are some things we agree upon, like the Houston Astros 
going to Yankee Stadium and kicking the tar out the New York 
Yankees 3-to-zip last September.
    [Laughter.]
    Ms. McCarthy. Totally agree on that one.
    Mr. Olson. There we go.
    And I appreciate the positive steps you have taken on 
exceptional events in that new rule. Thank you for that.
    That being said, though, I have heard recently that EPA has 
a proposal to change the rules on how locals work with you all 
on transportation issues, projects, highway projects. I am told 
that the changes to transportation and air modeling could add 
months' delay and hundreds of thousands of dollars to highway 
projects.
    States are saying that this new ``AERMOD Model'' is more 
complex and less accurate than current models. Apparently, the 
Federal Highway Administration's concerns may have fallen on 
deaf ears with EPA.
    So, my question is, did EPA know of FHA's concerns? If so, 
were they ignored, and why are they ignored, if so, as well?
    Ms. McCarthy. I am sorry, I am afraid that I am going to 
have to get back to you on that. I am not familiar with any 
recent changes to the AERMOD Model. But, certainly, our goal in 
any model change is to get more accurate as well as more simple 
in terms of how you can ensure compliance and work can 
continue.
    Mr. Olson. I like accurate and simple. That sounds good, 
yes, ma'am. Let's work together to make this stuff work. Work 
with me to get some information and make sure there is no 
problem here.
    Ms. McCarthy. That would be great.
    Mr. Olson. Great. Thank you.
    Question No. 2 is, last week I introduced a bipartisan new 
bill on the National Ambient Air Quality Standards, H.R. 4775. 
It has almost a dozen revisions that would make the 
implementation of the ozone standards and other NAAQS practical 
and cost-effective. I don't know if you have had a chance to 
look at that bill yet. Have you seen that yet, ma'am? Or it is 
probably too quick?
    Ms. McCarthy. I have not studied it, sir, no.
    Mr. Olson. Can I get you to promise to work with me to get 
that bill at least discussed, where we can come to work 
together to get some commonsense, if that is the right term for 
it, but something that guys could achieve out there? Because I 
am concerned about right now many counties are in non-
containment with the current standards. And going lower, let 
them get full attainment, and then, let them go lower. So, 
let's work on that together. Can we do that, please?
    Ms. McCarthy. Well, sir, I will be happy to continue to 
talk to you on it. I do know, is this ozone that we are talking 
about?
    Mr. Olson. It is ozone, yes, ma'am, mostly, yes.
    Ms. McCarthy. Yes. OK.
    Mr. Olson. And Question Number 3, as states struggle to 
implement EPA's Ambient Air Quality Standards, they send SIPs, 
State Implementation Plans, to you, EPA. You approve these 
plans, so that states can go about their business of having 
cleaner air. Your budget documents indicate that at the end of 
2015, FY 2015, EPA had 557 backlogged SIPs.
    Ms. McCarthy. Yes.
    Mr. Olson. And while the Clean Power Plan is in limbo now 
because of the courts, the Supreme Court, can you shift that 
money to get rid of this backlog of these SIPs? Can you take it 
from the Clean Power Plan and make it address these backlogs of 
SIPs? Is it money you need or what do you need to get this 
backlog fixed?
    Ms. McCarthy. Actually, the challenge for us--and we do 
have a plan that we have worked on with the states that is 
racheting down the backlogs in the system.
    You mentioned the exceptional events.
    Mr. Olson. Yes.
    Ms. McCarthy. What we found was our failure to address 
exceptional events well and to make that a streamlined 
opportunity for states to talk about when they have an anomaly 
that they want credit for, we found that in California the 
minute we did an exceptional event policy for high-wind events, 
they could release 200 State Implementation Plans.
    Mr. Olson. Yes, yes, yes.
    Ms. McCarthy. So, it is more than money. It is really 
looking at what the substantive issues are and making sure we 
are doing our job to speak to the policy itself, so that the 
regions are comfortable in going through the approval process 
and getting that done.
    Mr. Olson. Great. And one final invitation, olive branch 
per se. Mr. McNerney from California talked about carbon 
capture sequestration.
    Ms. McCarthy. He did.
    Mr. Olson. You mentioned that EPA has some projects that 
are viable for enhanced oil recovery. That is right there in my 
district. It is called the Paris Power Plant, the Petra Nova 
Project.
    Ms. McCarthy. Yes.
    Mr. Olson. Come on down and see it. They have got four coal 
generators and four natural gas. They are capturing coal out of 
one generator, putting it in a pipeline. There is an oil field 
about 65 miles to the south. Getting that in there, pressure, 
more oil; it pays for itself. Come down and see it personally.
    Ms. McCarthy. Thank you, sir. I appreciate the invitation.
    Mr. Olson. You are welcome.
    Thank you.
    Mr. Whitfield. The gentleman yields back.
    At this time the Chair recognizes the gentleman from Texas, 
Mr. Green, for 5 minutes.
    Mr. Green. Thank you, Mr. Chairman.
    Administrator McCarthy, thank you for being here today. It 
is always a pleasure to have you before the committee. And I 
thank you for coming to Houston last month for the CERAWeek, 
and I am glad they treated you well there at that energy 
conference.
    Ms. McCarthy. They did. Thanks.
    Mr. Green. One of my questions--and we talked about it when 
you were in Houston--families in our district in eastern Harris 
County, they are very concerned about the Dioxin and the 
pollutants found in the San Jacinto River waste pits. Now the 
waste pits were declared a Superfund site 8 years ago, and to 
date, no final decision has been made.
    Ms. McCarthy, when will EPA make a final decision on 
remediating the San Jacinto River waste pits?
    Ms. McCarthy. Sir, I will have to get back to you when the 
final decision is. I know that the concern is to make sure that 
we address the interim measures that we need to keep the 
opportunity to have that safe and go through the process to 
define the final remedy.
    Mr. Green. OK. Local stakeholders in our district are 
concerned that EPA will decide to keep the Dioxin in the river 
underneath a temporary armored cap that was put in place a few 
years ago. Our communities fear that the armored cap would 
fail, as it did recently either during a major flood/hurricane 
or the damage by the barge which happened recently.
    CERCLA requires and prefers remedies that will permanently 
and significantly reduce the volume, toxicity, and movement of 
the hazardous substances for the protection of human health and 
the environment. And I join the local stakeholders in calling 
that for removal.
    The concern I have, Ms. McCarthy, is leaving Dioxin in the 
flood plain in an aquatic environment is not an appropriate 
permanent solution. What would prevent the EPA from adopting 
the most preventative remedy possible for the Superfund site, 
like building a container wall and, then, removing that Dioxin 
facility?
    Ms. McCarthy. Generally, what we do, sir, is when we put 
out for comment a proposed remedy, when you look at a proposed 
plan, we will put a range of options out, and we look at that 
from how protective they are, how certain we are that they are 
going to remain protective, as well as look at the costs 
associated with that. So, I am sure you will see that we will 
put out a full range of options for folks to comment on, and I 
appreciate the fact that you have communicated with me strongly 
about the interests of your constituents here.
    Mr. Green. And I appreciate EPA having a hearing in 
Channelview, Texas----
    Ms. McCarthy. Yes.
    Mr. Green [continuing]. Six weeks ago or so, and I was glad 
to be there.
    I also notice, is it true that EPA requested $1.13 billion 
for Superfund for the next fiscal year, the lowest request in 
14 years? Is it $1.13 billion, the budget request?
    Ms. McCarthy. I am not aware of how low it is compared to 
other years. I know that it is an increase over what we had 
requested last year of $20 million.
    Mr. Green. And is it true that EPA completed work on only 
eight Superfund sites in fiscal year 2014, the lowest number of 
construction completions since 1997?
    Ms. McCarthy. I can get back to you on that as well, sir.
    Mr. Green. OK. Given the low number of sites, which 
includes the San Jacinto River, I would hope our budget 
proposal would be much higher than what the EPA requested.
    Last month in your visit to Houston we discussed our 
quality and monitoring. We are challenged in Houston, and I 
want to work with you and improve our situation as rapidly as 
possible. Can you give me a quick overview of EPA's budget on 
air monitoring and improvement?
    Ms. McCarthy. Yes, sir. We have a robust monitoring 
network, but we are requesting an additional $40 million for 
monitoring technology for the states. As you know, we have 
requested an increase in state and tribal categorical grants of 
about $77 million.
    So, we do think we have good monitors out there. We need 
more ability to be able to support state efforts. One other 
thing that I think is important to remember is that in your 
area I think that your community is working very hard, the 
communities in that area are. There are significant challenges 
in port areas.
    Mr. Green. Yes.
    Ms. McCarthy. And that really is something that our DERA 
Program has supported. We are looking for $10 million again 
this year, but the President has also proposed a climate 
infrastructure fund that could really ramp up our ability to be 
able to support reductions in pollution in the port areas. That 
could have appreciable difference in the quality of air in 
Houston.
    Mr. Green. Well, thank you. Having the Port of Houston, an 
industrial port, it is important, particularly with our 
industries on the side.
    Ms. McCarthy. And they do a good job. I have actually been 
there to give them some awards before. They are doing a great 
job.
    Mr. Green. Well, we are trying. In fact, I know we have one 
refinery who has problems, and I suggested to EPA that that 
refinery ought to be able to monitor their own fenceline. 
Because, again, in our area we have literally fenceline-to-
fenceline of industry, and we want to know who the bad actors 
are or the ones who need help. That fenceline monitoring by the 
industry would be helpful.
    Ms. McCarthy. And the technology is there. In fact, our 
most recent changes to the refinery rule are going to start 
requiring that. So, we are interested in the same thing, sir.
    Mr. Green. Mr. Chairman, I thank you for your patience.
    I would like to submit a question on methane emissions to 
the Administrator, and appreciate you responding.
    Mr. Whitfield. Without objection.
    At this time the Chair recognizes the gentleman from Ohio, 
Mr. Latta, for 5 minutes.
    Mr. Latta. Thank you, Mr. Chairman.
    And, Administrator, thanks so much for being with us today.
    Last October the EPA revised its 2008 Ozone Standards. Is 
that correct?
    Ms. McCarthy. Yes. Yes, sir.
    Mr. Latta. How many counties does EPA expect will be 
designated to be in non-attainment with the 2015 standards?
    Ms. McCarthy. Actually, to the best of my recollection--and 
I can get back to you on that--it is going to amount to, we 
estimated about a dozen areas potentially, in addition to some 
areas in the State of California which face particularly 
unusual challenges because of the geology.
    Mr. Latta. But do you know how many counties, just not the 
states?
    Ms. McCarthy. That is how many areas that we are looking 
at.
    Mr. Latta. Because looking with the Congressional Research 
Service, based on their most recent data, they are looking at 
probably 241 counties in 33 states. Does that sound correct?
    Ms. McCarthy. I think that may be an overestimate on the 
basis of what we believe our current on-the-books rules will do 
in terms of reducing NO<INF>x</INF> and VOC emissions.
    We have taken a lot of steps, as you know, to reduce air 
pollution, and we think they will have an appreciable 
difference in terms of the years. We are not looking at what is 
out of attainment now because attainment isn't until 2017. So, 
we are looking at data from 2014, 2015, and 2016 to make a 
judgment on what is in non-attainment. We don't think that is 
going to amount to a significant amount of designated areas.
    Mr. Latta. OK. But, just out of curiosity, then, why did 
CRS come up with 241? Weren't they looking at the data?
    Ms. McCarthy. I would be happy to go back and take a look 
at that and, also, to verify the number of areas we are talking 
about. I apologize, but----
    Mr. Latta. Yes, if you can do that, I would appreciate if 
you would get back to the committee on that.
    Ms. McCarthy. I am happy to do that.
    Mr. Latta. OK. Then, also, going right along with that, 
because, again, in my district I have 60,000 manufacturing jobs 
in northwest plus central Ohio. Has the EPA done any analysis 
of the impacts of either the 2008 or the 2015 standards on 
manufacturing in areas designated as being in non-attainment?
    Ms. McCarthy. We certainly have done an impact assessment. 
Our understanding of this is that we are focused more on what 
the impacts are and what it means for individual states and in 
counties. I don't recall a specific impact on industries in 
those areas. I know there will be challenges, but I don't think 
we have understood them to be appreciable.
    Mr. Latta. Let me ask this, could you define, when you say 
you have done impact assessment, how would you define that 
impact assessment, especially if you say you haven't really 
been looking on the manufacturing side? But, again, there is 
just massive thrust in Ohio. Also, when we look at what 
happened in the last several years, we are at least about 74-75 
percent coal-fired power plants in Ohio, and it is down in the 
70 percent now. But how would you define, then, the term 
``impact assessment''?
    Ms. McCarthy. I am sorry, can we reclarify again, sir, what 
you are talking about?
    Mr. Latta. Well, right. You said that you had been working 
on some impact assessments.
    Ms. McCarthy. Which rule are we talking about, sir?
    Mr. Latta. Pardon me?
    Ms. McCarthy. Which rule?
    Mr. Latta. OK. This would be the 2008 and, also, 2015, when 
we look at the non-attainment.
    Ms. McCarthy. OK. Right.
    Mr. Latta. Right.
    Ms. McCarthy. Well, we have done some analysis, sir, to 
look at the impact of designation on industries and whether or 
not they can continue. I think you know that it does put a 
burden when you are in non-attainment in order to not make the 
unhealthy air more unhealthy as industries grow. So, there are 
opportunities to look at offsets that can continue to expand 
industries. We just have not identified that those are 
insurmountable in any area. They are more challenging in 
California than anywhere else. But, usually, when you are 
looking in other states, you find opportunities for offsets at 
reasonable cost that can allow even new industries to locate in 
non-attainment areas.
    Mr. Latta. OK. Just to follow up on that again, because I 
am not sure I caught what you just said a little bit earlier, 
you said whether they can continue. Are you talking about the 
manufacturing or the power, or both?
    Ms. McCarthy. I was talking about manufacturing. At the 
levels they are manufacturing and even with new facilities 
coming in, you need to account for the emissions that you may 
add into the area, but you can do that using offsets, which 
means you can look at your permitting process and identify the 
least-expensive way to get NO<INF>x</INF> reductions and 
utilize that for new facilities coming in, which is what I 
understood to be the major issue.
    Mr. Latta. OK. Mr. Chairman, if I could ask, also, if maybe 
we could follow up on that question and, then, also, maybe the 
earlier question to the Administrator and get back to the 
committee?
    Mr. Whitfield. Absolutely. Without objection, so ordered.
    At this time the Chair would recognize the gentleman from 
Iowa, Mr. Loebsack, for 5 minutes.
    Mr. Loebsack. Thank you, Mr. Chair.
    Good to see you, Madam Administrator, as always.
    Ms. McCarthy. You, too.
    Mr. Loebsack. I appreciate the work you are doing.
    A couple of questions. The first one, as you know, the 
Department of Energy states, using ethanol as a vehicle fuel 
has measurable CHG emissions benefits compared with using 
gasoline. Carbon dioxide released when ethanol is used in 
vehicles is, in fact, offset by the CO<INF>2</INF> captured 
when crops used to make ethanol are grown.
    Now, given the role of renewable fuels, given the role that 
renewable fuels play in cutting down greenhouse gases, 
shouldn't the recent RFS Renewable Volume Obligations, RVOs, be 
increased to achieve this goal?
    Ms. McCarthy. We certainly are looking to be as aggressive 
as we can, knowing that the U.S. is a leader in biofuels.
    Mr. Loebsack. Right.
    Ms. McCarthy. In looking at the aggressive nature of the 
renewable fuels standard, we are looking for every opportunity 
to both make it aggressive, but also recognize that it has to 
be achievable at the same time.
    Mr. Loebsack. Right. Because you are working on 2017, I 
assume, is that correct?
    Ms. McCarthy. Yes, that is correct.
    Mr. Loebsack. Yes.
    Ms. McCarthy. Yes.
    Mr. Loebsack. And you will be hearing from a lot of us, no 
doubt----
    Ms. McCarthy. Yes.
    Mr. Loebsack [continuing]. As you did in the past when it 
came to the past renewable fuel standard. I know it is 
controversial. Not everybody is onboard with it on either side 
of the aisle, for that matter, as well.
    Ms. McCarthy. But, sir, you have spoken to me from 
Congress. I am implementing the law as it is, and that is what 
I do.
    Mr. Loebsack. Yes, and I look forward to continuing to have 
that conversation. In fact, I have some corn growers here in 
the audience. I just happened to meet with them prior to this 
meeting. And so, that is something that is clearly important to 
them and to the whole State of Iowa, for that matter, but not 
just Iowa, many other places around this country as well.
    The second one has to do with the Waters of the U.S.
    Ms. McCarthy. Yes.
    Mr. Loebsack. I am sure all my colleagues are in agreement 
that providing clean water is critical for all of us. Folks in 
the agricultural community recognize as well that we have got 
to have clean water.
    One program, in particular, of course, the Waters of the 
U.S., has had a bit of an uphill battle over the years, as we 
have seen. It is in the courts as we speak. But I think 
everybody can agree that we have to have clarity on the rules 
before anything else. That is the one thing I hear from folks 
in the agricultural community in Iowa more than anything else.
    I have been taken out to ditches, and folks there are 
frightened, to be quite honest, that without necessary clarity, 
that all kinds of lawsuits and all kinds of actions could be 
taken against them. And I have to say I understand their 
concerns. I want to have clean water. I want to make sure we do 
the right thing, but so do those folks in rural areas.
    But we have got to have the clarity when it comes to things 
like not just streams and rivers, but ditches and ponds, and 
what have you. There is real concern in farm country that there 
still isn't that kind of clarity with respect to WOTUS. Can you 
speak to that?
    Ms. McCarthy. Well, I think that we tried to actually 
provide greater clarity. That is what the Clean Water Rule was 
intended to do. I actually think we accomplished that in many 
ways, and we need to have a really good conversation about 
that, knowing that it is in the courts at this point.
    But let me give you an example on ditches. Believe me, I 
never created the word ``ditch''. It is in the statute, which 
is why we had to deal with it. But we made it really clear that 
ditches exclude intermittent and ephemeral ditches. It is only 
when a ditch has been constructed in an existing stream or 
wetland that it becomes significant enough to warrant 
protection.
    Mr. Loebsack. Can you tell me what ``intermittent'' means? 
Sorry to interrupt. What does ``intermittent'' mean?
    Ms. McCarthy. Basically, you are talking seasonal or just 
when it rains. I mean, that is what we are talking about.
    So, we have tried to make it clear that these intermittent, 
these only have water in them every once in a while, do not 
constitute a jurisdictional water.
    Mr. Loebsack. Well, I have heard the stories like, what if 
there is 7 inches of rain and it is not intermittent?
    Ms. McCarthy. Yes.
    Mr. Loebsack. But that creates an environmental problem as 
such. And a DNR person comes out and checks it out, and all of 
a sudden the farmer is in trouble because it happened to rain 7 
inches that night.
    Ms. McCarthy. Well, that is why what we did here is make it 
much clearer than the existing rule actually does. We made it 
clear that that does not constitute a jurisdictional water. 
Only if it was a stream to begin with and you have channeled 
it. So, we tried to get clearer.
    We have also gotten clearer on erosional features, to make 
the case that, if it rains hard, it looks like there are 
streams everywhere.
    Mr. Loebsack. Right.
    Ms. McCarthy. Those don't count.
    Mr. Loebsack. Right.
    Ms. McCarthy. It only has to be something that is 
constructed or natural that really can impact the downstream 
water----
    Mr. Loebsack. Well, my time is almost up.
    Ms. McCarthy. Otherwise, there is no connection.
    Mr. Loebsack. And I do appreciate this conversation. I hope 
we continue to have this conversation. I know you came to the 
Iowa State Fair a few years ago.
    Ms. McCarthy. I did.
    Mr. Loebsack. I will personally invite you out there if you 
are willing to come.
    Ms. McCarthy. Well, thank you.
    Mr. Loebsack. And I can guarantee you we can get some folks 
in the agricultural community together and have a conversation.
    Ms. McCarthy. I will take every opportunity I can. Thank 
you very much.
    Mr. Loebsack. Thank you.
    And thank you, Mr. Chair, for letting me go over. Thank 
you. I yield back.
    Mr. Whitfield. The gentleman yields back.
    At this time the Chair recognizes the gentleman from West 
Virginia, Mr. McKinley, for 5 minutes.
    Mr. McKinley. Thank you, Mr. Chairman.
    And thank you again, Ms. McCarthy, for coming.
    I am curious, you have given us kind of a smorgasbord of 
things to go after here a little bit this morning. If I could 
just touch base on one, I want to get it clarified. You said 
that there was more than one facility using carbon capture. You 
didn't mean coal-fired power plants, did you? Because there is 
only one coal-fired power plant using carbon capture, is that 
not correct, in America?
    Ms. McCarthy. I would have to go back and check, sir. I 
haven't looked recently.
    Mr. McKinley. That is what you said to me 2 years ago and 
last year. So, I hope you do get back to us on that. But Kemper 
is the only one. You know that. It is the only one.
    Ms. McCarthy. I do know. I know Kemper, yes.
    Mr. McKinley. So, my other question, have you ever visited 
the West Virginia coal fields or been in a West Virginia coal-
powered plant?
    Ms. McCarthy. Not that I am aware of, sir.
    Mr. McKinley. Have you ever been to one in Kentucky or 
Wyoming?
    Ms. McCarthy. No, sir.
    Mr. McKinley. That is what I was afraid of. So, I am just 
curious, you are part of this bureaucracy that is passing all 
of these legislative fiats and regulations, but never really 
touching base with the people that you are affecting their 
lives.
    When he was here the other day, the Secretary said he wants 
to come to West Virginia and he wants to see because he had 
heard about the Longview Power Plant. Do you know anything 
about the Longview Power Plant?
    Ms. McCarthy. No, sir, I don't.
    Mr. McKinley. That is one of the most efficient, if not the 
most efficient, power plant in America, and it doesn't use 
carbon capture.
    So, I would extend the invitation to you again and again. I 
have done that. And whatever your schedule is, it has never 
permitted you to come West Virginia. So, I think we had better 
take this seriously, the impact we are having on people's 
lives.
    In the last couple of weeks, some of the candidates have 
been saying that we need to move away from coal and other 
fossil fuels in their campaigns. One of them said we are going 
to put a lot of coal miners out of work. Do you agree with 
that? Is that good for the economy, to put our coal miners out 
of work?
    Ms. McCarthy. Well, it is certainly not good for anybody to 
be out of work in an economy.
    Mr. McKinley. So, you would disagree? You would disagree 
with that premise that someone said we ought to put them out of 
work?
    Ms. McCarthy. Personally, I do not agree that anyone in the 
United States of America should go without a job who wants to 
work.
    Mr. McKinley. Thank you. OK.
    So, if I could go back to part of your testimony, also, you 
talked about a stable climate.
    Ms. McCarthy. Yes.
    Mr. McKinley. And you want to maintain a stable climate, 
but, unfortunately, the rest of the world doesn't seem to be 
following in those footsteps in that stable climate. We have 
got a chart someplace they are going to put up here in a minute 
that shows--my clock is ticking.
    Ms. McCarthy. Technology is always tricky.
    Mr. McKinley. Yes, it is always. Well, thank you. 
Unfortunately, Mr. Chairman, I was told that chart would be up.
    It shows that China is going to increase its production or 
use of coal by 460 gigawatts of power and India another 360 
gigawatts of power. I don't know what it is going to take. The 
world is not following our leadership.
    So, I am curious, 2 or 3 years ago, I raised the same 
question to you. You were going to get back to me and I never 
heard back from you again. That was that, according to the IPCC 
with the United Nations, it said that, if we terminated all 
coal-fired power plants in America, so that we didn't burn one 
ton of coal in America, the total reduction to CO<INF>2</INF> 
on the globe would only be two-tenths of 1 percent. Do you 
think that is a measurable impact on the climate of the world, 
especially given that the other nations aren't going to follow? 
So, if we terminate two-tenths, but, yet, the other nations of 
China and India are going to way more than make up for that 
loss, that it is worth it to our economy to put all our people 
and our coal companies out of work for something that is not 
measurable?
    Ms. McCarthy. Sir, I am not looking at making any choices 
on the kinds of energy that are generated. I am really trying 
to keep my eye on my job, which is to try to reduce pollution 
in ways that are reasonable.
    Mr. McKinley. Someplace along the line, it was not yours, 
but others. The Interior just put 33 percent of our coal 
reserves in the western coal on federal land, they put it on 
the shelf and said we don't have access to it to generate 
power. Forty percent of America's power comes from coal from 
federal lands, and 33 percent of our reserve comes from federal 
lands. And they just put 33 percent on the shelf. We can't 
access it.
    So, it may not be your Department, but you are part of that 
administration that has this war on coal that is saying we are 
not going to use coal. And even your successors are talking the 
same language. I don't understand. If it doesn't have an impact 
on climate change around the world, why are we subjecting our 
hardworking taxpayers and men and women in the coal fields to 
something that has no benefit?
    Ms. McCarthy. I think, sir, we see it as having had 
enormous benefit in showing sort of domestic leadership as well 
as garnering support around the country for the agreement we 
reached in Paris.
    Mr. McKinley. But even though no one is following this? 
China has doubled. Since that Paris accord, China has already 
announced that they are going to put up 360. India has 
announced that they are going to double their use of coal since 
the Paris accord.
    I am afraid my time is over.
    Mr. Whitfield. The gentleman's time has expired.
    We will ask the staff to get that chart and we will include 
it in the record.
    [The information appears at the conclusion of the hearing.]
    Mr. Whitfield. At this time I recognize the gentleman from 
Oregon, Mr. Schrader, for 5 minutes.
    Mr. Schrader. Thank you very much, Mr. Chairman. I 
appreciate it.
    And I appreciate the Secretary for being here. It is always 
a good time, very interesting comments so far. I learn a lot at 
these types of hearings about my friends and colleagues around 
the country.
    We have a big issue out in Oregon, and I think we saw it 
nationally, with our forest burning up during this last summer, 
unprecedented wildfires, unprecedented carbon pollution into 
the atmosphere, exactly the opposite I think of what we are 
trying to do with all these programs at EPA.
    Ms. McCarthy. Yes.
    Mr. Schrader. In that regard, we are trying to use and work 
our forests in a much more sustainable manner. There is an 
opportunity for more active timber management, I think, that 
would take that carbon fuel, if you will, out of the forests 
and make it healthier. The devil is always in the details, just 
to say.
    One thing I would ask you to look at in your Department, 
and in trying to encourage use of a carbon-neutral life-cycle 
resource like wood and like our forests, is look at some of the 
standards that you have. In September the agency put out some 
standards regarding government procurement----
    Ms. McCarthy. Yes, we did.
    Mr. Schrader [continuing]. Dealing with different third-
party verification processes. I am very concerned that it, 
inadvertently I hope, discriminates against a large part of our 
land mass, particularly in the West, where there is alternate 
ways to look at certification of these forests for sustainable 
practices or FSC. Out where we are, it is a lot of SFI. I won't 
bore the committee with all the acronym evaluations here, but 
you understand where I am going with that.
    Ms. McCarthy. Yes.
    Mr. Schrader. I would urge you to take a look at that. My 
evaluation on your Web site is that they all meet the criteria 
you have put out there. I have gone through an appendix from 
your agency that talks about the different pieces or 
evaluations that each goes through. It looks almost exactly the 
same when it comes to species, monitoring, control, and 
response to disease and disturbances, these sorts of things, 
reforestation. There is a difference maybe in the acreage size. 
That is the only thing I can see there.
    Frankly, rural Oregon is not doing well. Rural America 
isn't doing well. They have not recovered from the Great 
Recession. I see that Portland is doing great. But I am 
interested in how the rest of the country is doing.
    What has happened, because of these artificial standards 
that I think are misapplied and could stand some revision--
these forests could be put back to sustainable use. Decrease 
our carbon footprint and, hopefully, employ lots of people in 
this country, folks in my state.
    I will give you a quick example. In Oregon there is over 
4.3 million acres that are certified by the three big programs 
that are out there. EPA's current recommendation, current 
interim rule, would exclude over 4.1 million of those 4.3 
million acres. That just doesn't seem right, Madam Secretary.
    We all want to be in the same place, I think, on this. I 
think you would get broader support for some of the rules and 
some of the work you are trying to do at EPA if you opened up a 
little bit to some of these other certification programs that 
are just as valid, very well certified by third-party people. 
If you could do that, I would really appreciate it. But maybe 
get back to myself and maybe members of the committee on how 
you are going to be looking at that.
    Ms. McCarthy. Well, sir, I really appreciate your comments. 
We did hear that we were too narrow in the interim. We went 
with the standard that the Department of Energy was using, 
which is why it seemed like a reasonable first step.
    Mr. Schrader. Sure.
    Ms. McCarthy. But in no way was it the only step that we 
are taking. So, we are taking a look already at all the other 
standard-setting opportunities that we have to see if they are 
comparable, equally aggressive, how we would take account of 
those. And we recognize that there is work to be done, and we 
are starting that work now.
    Mr. Schrader. All right. Well, very good, because there is 
a lot of lives, jobs, and community sustainability at stake 
here----
    Ms. McCarthy. I agree.
    Mr. Schrader [continuing]. As well as our forests.
    Ms. McCarthy. Thank you.
    Mr. Schrader. Thank you.
    With that, I will yield back, Mr. Chairman.
    Mr. Whitfield. The gentleman yields back.
    At this time the Chair recognizes the gentleman from 
Virginia, Mr. Griffith, for 5 minutes.
    Mr. Griffith. Thank you, Mr. Chairman. I appreciate it.
    Mr. McKinley was talking earlier and raised concerns about 
the fact that coal on U.S. federal lands are off-limits. Many, 
many jobs have been lost. You acknowledge that it is always bad 
for folks to be unemployed. Large numbers of people in Mr. 
McKinley's district and in my district are now unemployed as a 
result of policies of this administration, including your 
agency itself.
    And you indicated--and correct me if I got it wrong--you 
indicated that you were just doing your job, trying to set 
examples. But I would submit that, because of the concerns that 
Mr. McKinley raised with China increasing, even after the Paris 
accord was reached by the President, and India, according to 
Mr. McKinley, is going to be doubling their use of coal. Of 
course, they want to be energy-independent, as many nations 
want to, and they have some coal.
    I am just concerned that we are actually doing more harm to 
the world's environment, particularly in relationship to the 
air, because when we take our previously-reasonable regulations 
and we ratchet it up and we throw folks out of work, we raise 
the cost of energy in our country and we put our manufacturers 
at a disadvantage. And then, they decide that it is easier in 
some cases, in some not, but in some cases they decide it is 
easier to go places where they don't have those regulations, 
whether it be Mexico or China or India, or some other nation, 
but where they don't have the regulations that we have. So, we 
are actually creating a net increase in air pollution.
    I am just wondering, have you all not looked at that? Now I 
understand your job is just the United States. But when you are 
putting my folks out of work and Mr. McKinley's folks out of 
work, and I think that there is a good likelihood that there is 
a net increase, I am just wondering, have you all looked at the 
possibility that you may be inadvertently creating--and we can 
disagree about what is and isn't a pollutant--but are you 
inadvertently creating a net increase in the Northern 
Hemisphere for the air that we all breathe, whether it is in 
China or India or in Salem, Virginia?
    Ms. McCarthy. Well, if you are looking at greenhouse gases, 
sir, it doesn't matter where it is emitted. I think it matters 
to all of us.
    I will say that we have been working with a lot of 
businesses, a lot of international businesses, that are 
actually expressing serious concern that we do take notice of 
climate change and take action on it.
    But I will also say that the administration, I think, is 
very cognizant that the coal communities, the communities that 
rely on coal are facing significant challenges. We are 
interested in really moving forward with the President's POWER 
Plus proposal to see how we can build an economy that will be 
more sustainable and lasting.
    Mr. Griffith. Look, I don't disagree with that. That is an 
area where I think we have got to put some resources there----
    Ms. McCarthy. Yes.
    Mr. Griffith [continuing]. To try to help these 
communities. But that being said, what do you do in a community 
where we had a dispute over a piece of land because in 
Dickenson County in my district there were two pieces of flat 
land in the entire county that could be built on, and they 
needed a new high school. So, they had to use eminent domain to 
take one of the two pieces.
    How are we going to reinvent the economy? They have 
mountains, they have water, and they have trees.
    Ms. McCarthy. Yes.
    Mr. Griffith. We don't have flat land. In Buchanan County, 
the largest chunk of our flat land is formerly a surface mine 
that leveled things out, but folks think that is bad. So, it 
really puts us in a dilemma.
    And then, I have another dilemma that I think I have to 
bring up. That is many of my constituents don't understand an 
EPA that has eight buildings in the Washington, D.C., area. It 
has got 12 different zip codes. It has got so many employees 
floating around up here. And they say to me, ``Why don't you 
defund the EPA completely?'' And I have always defended by 
saying, ``Well, let's look at our clean water programs. There 
are other things that the EPA does that I think are good.''
    And then, we have the Flint, Michigan problem.
    Ms. McCarthy. Yes.
    Mr. Griffith. I don't know how I am going to tell those 
folks now where we have got these programs like clean water, 
when, clearly--and I know that there was some dispute in 
another committee earlier this week--but, clearly, the EPA 
dropped the ball.
    It looks like to me--I was in on one of those hearings in 
O&I, in our Government Reform Committee--it looks clearly to me 
like one of your employees was doing a coverup, told Ms. 
Walters of Flint, Michigan that they had handled Del Toral. The 
employee of the EPA who it appears was punished for blowing the 
whistle on the lead out there, I think that is a problem.
    Then, a former employee now, Ms. Hedman, comes in and says 
that she didn't think she did anything wrong. My constituent, 
Mark Edwards, a Virginia Tech professor--and, look, I don't 
know his politics, but Blacksburg is not a conservative area. 
It is one of the most liberal areas of Virginia and one of the 
most liberal areas in my district. But he says, if you are part 
of a government agency, it means you don't have to say you are 
sorry, and said that she was ``willfully blind, unremorseful, 
and completely unrepentant, and unable to learn from her 
mistakes''.
    How do I defend an EPA that that is the condemnation coming 
out of my district from the professor, Dr. Edwards? That is the 
thing I have always pointed to as being one of the good things.
    My time is up. I don't know if the chairman will allow you 
to answer that or not. I apologize, Mr. Chairman. I yield back.
    Mr. Whitfield. Did you want to respond or not?
    Ms. McCarthy. I am sure it is not an easy answer, sir. But, 
you know, I have asked the office of our Inspector General to 
take a look at this.
    I think the distinction I was trying to make is Flint is, 
no doubt, a tragedy. I know how it came about. Why I don't 
know, but I know how it came about.
    The question for EPA is, did we respond quickly enough when 
we found out that there was a problem? Did everybody raise it 
as quickly as they could, so that we could address it? That is 
a significant issue of accountability that we need to face, and 
we will face that.
    The individual in the region did resign, knowing it was on 
her watch. But we will see what the Office of the Inspector 
General says.
    Mr. Griffith. I don't think it is just the Inspector 
General, Madam. I believe it is also you. You are the boss.
    Ms. McCarthy. Yes, yes.
    Mr. Whitfield. The gentleman's time has expired.
    At this time the Chair recognizes the gentlelady from 
California, Ms. Capps, for 5 minutes.
    Mrs. Capps. Thank you, Mr. Chairman, Ranking Members. Thank 
you for holding this hearing.
    Thank you, Administrator McCarthy, for being here today.
    Clean drinking water, wastewater treatment, stormwater 
management systems, these are critical to our nation's basic 
functioning. Accessible water for agriculture is paramount to 
our economy and food security.
    But, unfortunately, and as has been discussed, our nation's 
water infrastructure is aging and deteriorating, and the 
impacts of this deterioration are significant and they are 
costly.
    We also know that climate change is directly threatening 
our ability to guarantee the delivery of safe and reliable 
drinking water, and at the same time it exacerbates the 
inadequacies of our nation's water infrastructure. So, it is 
kind of a perfect storm.
    One effect of climate change that has been particularly 
devastating to my home State of California is drought, a word 
we hadn't talked about it for a little while, but it is always 
there. While parts of California have had a little rain 
recently as a result of some kind of ongoing El Nino, this 
relief has not been equally felt across the State and we are by 
no means out of the woods.
    For example, in my district is a lake called Lake Cachuma. 
It is the source of our drinking water for over 220,000 
residents in and around Santa Barbara. This vitally-important 
reservoir has less than 15 percent of the water it can hold. 
Given the impacts of climate change, drought will, 
unfortunately, continue to be a pervasive issue, not only in 
California, but in other states as well.
    We have to act now to minimize the impacts of the changes 
and ensure that we are prepared. We have to do everything at 
once, juggle a lot of balls for the challenges that are ahead.
    I know EPA is working to address these issues. And just 
yesterday the President announced the establishment of the 
National Drought Resilience Partnership, NDRP--they always get 
an acronym right away--as part of his Climate Action Plan. NDRP 
will help to coordinate drought-related efforts, which is good, 
communities to mitigate the effects of the drought and build 
resilience. Those are the keywords, mitigation and resilience 
against future droughts. Everything has to be done at the same 
time. The NDRP will help coordinate it, do all of this, and I 
applaud the President for these efforts, as it clearly needs to 
be a priority for us all.
    I have a few questions for you, if we can kind of zip 
through them. I wanted you to just briefly describe EPA's role 
in the NDRP.
    Ms. McCarthy. Well, EPA is part of the project.
    Mrs. Capps. Yes.
    Ms. McCarthy. EPA brings to it a level of expertise in how 
communities can work through these issues. We provide tools.
    Mrs. Capps. So, you are at the table?
    Ms. McCarthy. Oh, absolutely, yes.
    Mrs. Capps. OK. So, are there some existing programs that 
you have already that will help to implement this initiative?
    Ms. McCarthy. Yes. We have been leading really a federal 
effort to look at resiliency issues and to develop tools that 
communities can use to understand opportunities for capturing 
water, keeping it local, and preserving it and conserving it.
    Mrs. Capps. And can I go home and talk about how the EPA's 
drought-related efforts will assist communities like ours right 
on the central coast----
    Ms. McCarthy. Yes, you can.
    Mrs. Capps [continuing]. Because they are waiting for some 
good news?
    Ms. McCarthy. Yes.
    Mrs. Capps. OK. They look to the sky and the rain doesn't 
come enough. And now, they are going to look to you, 
Administrator McCarthy.
    As part of the NDRP, what kind of outreach and education 
strategies will be utilized? A lot of this is in how we present 
ourselves in the community. You know, are we here to work with 
existing partnerships? And there are many of them on the 
ground.
    Ms. McCarthy. Well, we certainly, as part of our proposal, 
are looking for some more additional money to look at making 
sure we have basically what we call circuit riders, which is 
individuals with expertise in this area, so that they can be 
available full time to go work with communities on this issue.
    Mrs. Capps. Can you describe that? There is another minute 
left on my time. It goes fast.
    Ms. McCarthy. Yes.
    Mrs. Capps. I would like to hear more about these circuit 
riders? That is kind of a western term.
    Ms. McCarthy. Well, circuit riders mean that you can't 
build expertise everywhere and afford to get everybody up to a 
certain level. So, you basically have people in each region 
whose job it will be to work with communities, identify 
opportunities for tools that are available to us. We actually 
have a whole local community package on our web page of tools 
that they can look at and make available to themselves. 
Hopefully, it will help them jumpstart. Then, we share best 
practices. We look at what communities like yours that we could 
marry with and make progress moving forward.
    Mrs. Capps. Thank you.
    I am going to suggest what you are saying. Hopefully, there 
is a way I can do that with some of my district folks.
    What has happened now with this word drought that is 
looming large over us is that this suddenly has everybody's 
attention. We have got all these constituencies all needing 
water. And so, reclaiming, recycling, we are building a desal 
plant, we have to look to you as a partner at the table.
    Ms. McCarthy. One of the issues we need to look at is how 
that is connected with infrastructure and investments like 
drinking water, stormwater. You need to keep water local. 
Drinking water systems like the one in Flint loses 30 to 40 
percent of its water in leaks alone. We simply can't afford 
that.
    Mrs. Capps. No, we can't afford that. We need that water 
that is leaking in Flint in my district.
    Ms. McCarthy. Yes.
    Mrs. Capps. Thank you.
    Mr. Whitfield. The gentlelady's time has expired.
    At this time the Chair recognizes the gentleman from Ohio, 
Mr. Johnson, for 5 minutes.
    Mr. Johnson. Thank you, Mr. Chairman.
    And, Administrator McCarthy, thanks for being with us 
today.
    Ms. McCarthy. Thank you for having me.
    Mr. Johnson. As you know, America's brick and tile industry 
is struggling in our current economy. It is made up largely of 
small family-owned businesses that have been in business for 
generations and for the most part or in many cases are the only 
source of employment in the communities in which they reside, 
where they provide jobs and a tax base for their communities.
    The House recently passed bipartisan legislation that would 
impose a legislative stay of the Brick MACT Rule, pending 
judicial review. Administrator McCarthy, is the EPA willing to 
provide an administrative stay to protect these small 
businesses, especially given what happened to this industry 
before the rule was vacated in 2007, after they had already 
come into full compliance with a previous rule in 2003?
    Ms. McCarthy. We actually think that, when we met with 
small businesses, we did a good job at listening to the 
flexibility they needed in the rule itself. We provided very 
flexible options for smaller businesses, so they could comply. 
We actually gave maximum time as well for compliance.
    So, we believe that the rule as written should continue to 
move through the courts. Hopefully, we will have that on the 
books because it yields significant reductions in toxic 
pollutants in a way that we think small businesses can manage--
--
    Mr. Johnson. Yes, I am going to get to that aspect of it in 
a moment. But here's the problem: the industry doesn't see it 
the way that you just described it.
    Ms. McCarthy. Yes.
    Mr. Johnson. They spent hundreds of millions of dollars to 
comply with the 2003 rule, only to have it set aside by the 
courts in 2007. Then, when the EPA started formulating this new 
Brick MACT, they started with a baseline of where the 2007 rule 
that was set aside ended off----
    Ms. McCarthy. Yes.
    Mr. Johnson [continuing]. Giving the industry very little 
credit for the accomplishments of the reductions that they had 
achieved with the hundreds of millions of dollars that they had 
invested for control technology between 2003 and 2007.
    So, here they are again under stress. I mean, there are 
only about 7,000 jobs in America attributed to the brick 
industry. The industry is telling us that many of these small 
businesses will close down. And here is the real crux of the 
issue: we don't import brick in America. We have got a brick 
and tile industry that makes our construction materials. We 
don't import it from anybody else.
    Ms. McCarthy. No.
    Mr. Johnson. Unless we want to start making buildings and 
homes out of sticks and straw, we had better figure this out 
because these companies cannot continue to stand up under this 
duress. And we are not suggesting that we not move forward with 
the rule. We are just suggesting that we delay the rule, an 
administrative stay, work with your Department to do that, 
until the judicial reviews are completed. If the courts say, 
fine, go ahead, then we have something else to talk about. But 
that seems to be the prudent thing to do, rather than put this 
industry through another round of egregious compliance that the 
courts could come back and set aside, but then the damage will 
have been done again and we may lose a lot of our brick 
manufacturing capability.
    Ms. McCarthy. Well, sir, I think the administration has 
already submitted a SAP indicating that we really don't want to 
give up what amounts to 30 tons of reduction of toxic 
emissions.
    Mr. Johnson. So, they are willing to give up bricks and our 
ability to build buildings and homes for that?
    Ms. McCarthy. No, sir. We think that small businesses have 
been given enough flexibility in the rule as it has been 
designed. But I certainly understand your concern.
    Mr. Johnson. We disagree.
    Ms. McCarthy. If we have the Congress and the President 
move forward, we will certainly abide by it.
    Mr. Johnson. Well, we disagree strongly.
    Your agency has recently proposed an update to the Cross-
State Air Pollution Rule. Many states and stakeholders have 
raised concerns about the feasibility of implementing EPA's 
proposal, especially within a short period of time. It has got 
a proposed implementation of this summer or the summer of 2017.
    So, has your Department, your agency, done a specific 
analysis of this latest proposal on the reliability of the 
electricity grid and, if not, why not?
    Ms. McCarthy. I certainly know that we have done a 
regulatory impact assessment on this rule. This rule, it used 
to be called the Cross-State Air Pollution Rule. I think we 
still do call it that. But this is an actually very 
sophisticated and should be very successful trading program. 
So, it does provide lots of flexibilities to get these 
reductions, and it is a rule that we just proposed. We are in 
the comment period. We certainly want to take cognizance of the 
comments that come in and anticipate any adjustments that are 
necessary before the rule might be finalized.
    Mr. Johnson. I know I am over my time, Mr. Chairman.
    But would the EPA consider reproposing this rule, given the 
concerns that have been raised about the likely unworkability 
of the proposal?
    Ms. McCarthy. Well, we just proposed it, sir. It is going 
to be important for us to see what the comments look like when 
they come in.
    Mr. Johnson. Mr. Chairman, I yield back.
    Mr. Whitfield. The gentleman's time has expired.
    At this time the Chair recognizes the gentlelady from 
Colorado, Ms. DeGette, for 5 minutes.
    Ms. DeGette. Thank you so much, Mr. Chairman.
    Thanks, Administrator McCarthy, for coming over today.
    In 2005, when Congress passed the Energy Act, they exempted 
hydraulic fracturing from the Safe Drinking Water Act, as you 
know. In 2009, our former colleague Maurice Hinchey and I, we 
secured funding for the EPA to study the effects of hydraulic 
fracturing on drinking water. Up to that date, the research on 
fracking was very limited and it mostly consisted of reviews of 
similarly-limited literature.
    So, especially being from Colorado, where we have a lot of 
fracking going on, I thought it was important that we 
understood the impacts of hydraulic fracturing on drinking 
water. So, last June the agency issued a draft version of the 
assessment, and it found that there were mechanisms by which 
hydraulic fracturing activities could impact drinking water 
resources.
    But, then, at the same time, the press release and the 
executive summary that came out also prominently stated that 
hydraulic fracturing has not led to ``wide systematic impacts'' 
to the drinking water of the United States.
    I was, frankly, surprised in this press release that it 
would say that because the study that we authorized was 
designed to develop the understanding of specific ways that 
contamination could occur with hydraulic fracturing. Frankly, I 
am glad that we haven't had wide systematic impacts, but it 
doesn't matter whether we have had it, if it could occur.
    And so, what we were trying to do is to say figure out the 
preliminary research that could characterize the currently 
little understood or unknown pathways to contaminating of 
drinking water from hydraulic fracturing, not in broad 
proclamations.
    And then, in the draft version of the study the EPA said, 
``The limited amount of data collected before and during 
hydraulic fracturing activities reduces the ability to 
determine whether hydraulic fracturing affected drinking water 
resources in cases of alleged contamination.''
    And then, the Scientific Advisory Board charged with 
reviewing the study agreed that the broad declarations in the 
summary and press materials ``are presented ambiguously and are 
inconsistent with the observations, data, and levels of 
uncertainty presented in the report''. So, basically, this 
preliminary version that was released last June, it just 
created even more confusion, which is what we have had since 
2005.
    And so, what I am worried about is that the EPA doesn't 
know still, and cannot estimate still, what the potential 
impacts of drinking water contamination are. The assessment 
identifies several mechanisms by which a spill, leak, or 
migration of hydraulic fracturing fluids could potentially 
contaminate drinking water, but the scope of the study didn't 
have the EPA evaluate how those events would affect human 
health.
    So, pretty soon here, I am hoping in the next few months, 
the EPA will release the final report. I am hoping what it will 
do is more clearly emphasize the risk, the real scientific 
risk, to drinking water resources and what we can do, how we 
can get that data to ensure that our drinking water is safe.
    Anyway, you might want to comment on that in one minute and 
four seconds.
    [Laughter.]
    Ms. McCarthy. OK. My only comment is I think that it was 
clearly a necessary study for us to do. I think very often, 
when we put out a science study, people will pick and choose--
--
    Ms. DeGette. Right.
    Ms. McCarthy [continuing]. Sentences in it. Basically, we 
said we didn't have evidence of widespread systemic impacts to 
drinking water, but we clearly did identify that there are 
potential mechanisms in the water system where impacts could 
occur, but there were also opportunities for offsetting those 
by taking the right preventive measures----
    Ms. DeGette. Right.
    Ms. McCarthy [continuing]. Like looking at how you 
construct a well, understanding your groundwater flow and 
pattern before you even consider inserting hydro-frack fluid 
into the groundwater----
    Ms. DeGette. Right.
    Ms. McCarthy [continuing]. Or below the groundwater.
    So, there are challenges here, but we did suffer from 
having little real data, significant amounts of data, to more 
effectively be able to speak with certainty about what was 
going on.
    Ms. DeGette. Well, I am just hoping that, when you all 
issue the final results of the study, that you can clearly say 
where the gaps still are. Because that is exactly why we need 
the study, to be able to say how you can do fracking in a safe 
way that protects our drinking water, which I think it can 
happen, but we need to get that data to know how.
    Ms. McCarthy. In many ways, we are relying on states like 
Colorado.
    Ms. DeGette. Thank you. OK. Thank you.
    Mr. Whitfield. The gentlelady's time has expired.
    At this time the Chair recognizes the gentleman from North 
Carolina, Mr. Hudson, for 5 minutes.
    Mr. Hudson. Thank you, Mr. Chairman.
    And thank you, Administrator McCarthy, for joining us 
today.
    Ms. McCarthy. Yes.
    Mr. Hudson. Administrator, I am sure you are familiar with 
EPA's proposed rule released last July that proposed new 
greenhouse gas standards for medium and heavy-duty trucks.
    Ms. McCarthy. Yes, sir.
    Mr. Hudson. Are you aware that in the middle of that 
proposed rule there is a proposal by EPA to make it illegal to 
modify vehicles used solely for competition?
    Ms. McCarthy. No, sir, I don't believe that that is what it 
says, but I certainly understand the section that you are 
talking about.
    Mr. Hudson. Well, I can read the language to you. It says, 
``Certified motor vehicles and motor vehicle engines and their 
emission control devices must remain in their certified 
configuration even if they are used solely for competition or 
if they become non-road vehicles or engines.''
    It seems pretty clear to me. In your opinion, are owners of 
vehicles that have been modified so they can be used for 
competition now abolished in the law?
    Ms. McCarthy. Sir, there is a clear exemption in the 
statute that addresses NASCAR and other professional raceways 
and why we do not regulate those vehicles. I think we were very 
directly trying to make sure that we are doing no more than 
what we have done before in terms of either compliance or 
enforcement. And we are trying to recognize that exemption and 
that rule.
    Now I fully recognize that this has raised a lot of 
confusion and we need to address this confusion moving forward, 
because there is no way--NASCAR has been a great partner of 
EPA. They do great work on biofuels. The last thing I want to 
do is alienate them. That is for sure.
    Mr. Hudson. I appreciate that, but NASCAR is one facet.
    Ms. McCarthy. Yes.
    Mr. Hudson. But what about the man or woman who likes to 
take a car in their backyard and fix it up and take it down to 
the local drag strip and race it? I mean, that kind of 
modification it appears very clearly is now ruled out.
    Ms. McCarthy. Well, we have never ever enforced on an 
individual of that nature. What we are trying to do is get at 
manufacturers of these devices, that they sell and make sure 
that they sell them only for competitive dedicated vehicles. 
Because it is really challenging to us to make sure that the 
certified vehicles remain in compliance with air regulations.
    Mr. Hudson. Well, I appreciate what you are saying, but it 
says here emission fuel devices must remain a certified 
configuration, even if they are used solely for competition. I 
mean, it sounds different; the rule sounds different from what 
you are explaining.
    Ms. McCarthy. We will do the very best we can. We have had 
substantial amounts of discussion. Whatever we can do to 
clarify this, we are going to be able to take those steps.
    Mr. Hudson. Well, I think taking the words ``solely used 
for competition'' out----
    Ms. McCarthy. I will have to see it in its entirety, and I 
am not a lawyer. I appreciate the need to use common-sense 
language. I know that what I have told you is what our intent 
was. We will make sure that the language matches that.
    Mr. Hudson. OK. Well, I certainly appreciate that because 
not only is this an important way of life for a lot of 
Americans who enjoy taking cars and modifying them, so they can 
race, but it is a billion-dollar industry of aftermarket folks 
who make parts for people to use in competition.
    I remember, back in February, you testified before the 
committee and you made the point that not one EPA regulation 
has ever cost one job. I am telling you this is a billion-
dollar industry that would be wiped out if we can't clarify 
this and make sure the intent you have expressed is reflected 
in the regulation.
    Ms. McCarthy. Thank you, sir.
    Mr. Hudson. Thank you.
    With that, Mr. Chairman, I yield back.
    Mr. Whitfield. The gentleman yields back.
    At this time the Chair recognizes the gentleman from North 
Dakota, Mr. Cramer, for 5 minutes.
    Mr. Cramer. Thank you, Mr. Chairman.
    Thank you, Ms. McCarthy, for being with us.
    Ms. McCarthy, I have a couple of questions, maybe a 
statement and a request. Are you familiar or how familiar are 
you with a series of enforcement actions that your agency is 
working with the DOJ on using Section 114 to basically find 
consent, I guess, or a consent decree with a number of North 
Dakota oil companies? How familiar are you with that action?
    Ms. McCarthy. I am somewhat familiar with it, sir.
    Mr. Cramer. Yes. Does it seem like it makes sense to use a 
consent decree or to bully, if you will--my term, bully, and 
many companies' term, by the way--bully companies into some 
sort of agreement apart from a transparent process?
    Ms. McCarthy. Well, actually, sir, settlement agreements 
are reached in order to get compliance and make it easier for 
both the industry as well as----
    Mr. Cramer. Let me ask, are you familiar with a memo from 
Cynthia Giles from your office, the enforcement shop, to 
Regional Directors where she discusses the EPA's plan of, 
quote, ``innovative enforcement'' to force upon companies the 
compliance tools that go well beyond the regulations and laws 
as they currently exist? Are you familiar with that memo?
    Ms. McCarthy. I am not sure what----
    Mr. Cramer. Are you familiar with the term ``innovative 
enforcement''?
    Ms. McCarthy. Well, we actually are using a lot of 
innovation to make sure that we can use our resources wisely, 
take advantage of new technologies that are out there.
    Mr. Cramer. OK. Technologies such as perhaps FLIR cameras? 
Are you familiar with the use of FLIR cameras to capture images 
of----
    Ms. McCarthy. Yes.
    Mr. Cramer [continuing]. Methane gas escaping?
    Ms. McCarthy. Yes.
    Mr. Cramer. Do you know that FLIR cameras do not measure 
the amount of methane that is being leaked from a----
    Ms. McCarthy. Yes, sir.
    Mr. Cramer. OK. So, how do you, then, justify going to a 
company and saying, ``You are not in compliance'' based on this 
FLIR camera which does not measure the amount of the emission 
and then, I guess, threaten them with a fine of several 
thousand dollars per days since the construction? Are you 
familiar with threats of fines of millions, tens of millions, 
hundreds of millions, even multiple billions of dollars against 
companies?
    Ms. McCarthy. I am aware that we have reached settlements 
using that as a----
    Mr. Cramer. You have not reached any settlement in North 
Dakota with an oil company yet. You have with Mobil, a gas 
company, very different than oil----
    Ms. McCarthy. Yes.
    Mr. Cramer [continuing]. In Colorado; Colorado, a non-
attainment state, and North Dakota, an attainment state.
    My point is this: by attainment--you seem confused--that 
means attaining, meeting the compliance, compliant with your 
Ambient Air Quality Standards. North Dakota does that.
    My point is this: this is a State Health Department issue, 
in my view, not an EPA issue. North Dakota is a compliant 
state, not a non-compliant state. Our industry, in response to 
early notices from the EPA, well over a year ago, nearly 2 
years ago now, our State Health Department, our Oil and Gas 
Division which operates under the North Dakota Industrial 
Commission, which is three elected officials, the governor, 
attorney general, and the commissioner, working with industry, 
came up with a comprehensive plan, a global plan to deal with 
100 percent of the emissions.
    Your agency, ignoring that, rather than participating in 
that, has picked one company at a time--there are now somewhere 
around half a dozen to a dozen companies--to try to find 
consent, in other words, admission of guilt to something that I 
don't believe they are guilty of, by using this innovative 
enforcement activity. I find it, frankly, reprehensible. 
Frankly, I find it illegal.
    But, when companies are forced, especially with $40-a-
barrel oil to less, forced to either pay millions of dollars in 
attorneys' fees to fight this or comply or consent, sometimes 
it is cheaper to consent. I don't think that is an appropriate 
regulatory regime, quite honestly.
    I would rather see, here is what I would in the last 
minute. I want to ask you this closing question, and I am 
looking for a really good answer. Will you commit today to, 
instead of using these 114, this bullying tactic--again, my 
term--extortion tactics, would you, instead, work with our 
State and work with our Health Department, work with our 
Industrial Commission, our Oil and Gas Division, and our 
industry who want to comply 100 percent--they all want to 
comply--work with them on a global solution that actually 
reaches attainment rather than a fine or a penalty? How about 
we do that? You agree to that today and we will have a great 
industry.
    Ms. McCarthy. I will say 114 is an information collection 
request.
    Mr. Cramer. Yes, it is.
    Ms. McCarthy. And the tool that you are talking about is a 
screening mechanism that asks the question whether or not we 
think there may be significant violations of emissions of 
volatile organic compounds. And that is why you ask for the 
information from the companies. I wouldn't characterize it as a 
bullying tactic.
    Mr. Cramer. Well, except I think an issue is used to try to 
extort huge fines----
    Ms. McCarthy. It is used to see whether or not they are in 
compliance, and that has nothing to do with non-attainment. 
That has to do----
    Mr. Cramer. Explain that to the DOJ attorneys.
    My time has expired.
    Mr. Whitfield. Well, I appreciate your raising that issue 
because all of us have heard about that issue, and I am glad 
that he brought it to your attention.
    Ms. McCarthy. Could I just mention, and we are certainly 
happy to--we are in discussions with the State of North Dakota 
on this, and we would love to be able----
    Mr. Cramer. Well, we could save a lot of your budget money 
if you would just let the State handle it.
    [Laughter.]
    Mr. Whitfield. At this time the Chair recognizes the 
gentlelady from North Carolina, Ms. Ellmers, for 5 minutes.
    Mrs. Ellmers. Thank you, Mr. Chairman.
    And thank you, Ms. McCarthy and Mr. Bloom, for being here 
today for this subcommittee hearing.
    Administrator McCarthy, the 2015 ozone standards 
immediately apply to preconstruction permits that businesses 
need to grow and create jobs. That means businesses will have 
to immediately show their projects meet the 2015 Ozone 
Standard, something that may be hard to demonstrate in an area 
that it is or may be going into non-attainment status.
    What preconstruction permitting relief will EPA provide for 
areas in this situation?
    Ms. McCarthy. I am sorry, what preconstruction--what did 
you say?
    Mrs. Ellmers. What preconstruction permitting relief will 
the EPA provide for areas in this situation? What are the 
options for a non-attainment status area for preconstruction 
permitting?
    Ms. McCarthy. Right. The non-attainment designation isn't 
even going to be made until 2017. So, we are working with 
states to make sure that they understand what their attainment 
status might look like, but there is a fairly-lengthy process. 
We work back and forth with the governor of each state to 
identify non-attainment areas.
    Mrs. Ellmers. OK. So, that does not go into effect until 
2017?
    Ms. McCarthy. We haven't even finished collecting that data 
that would go into determining non-attainment yet. That is 
through 2016.
    Mrs. Ellmers. OK. So, the Obama administration pledged the 
United States would reduce greenhouse gas emissions by 26 to 28 
percent below 2005 levels by 2025. Were you consulted? Was the 
EPA consulted on that? I mean, how did the President come up 
with that number by 2025?
    Ms. McCarthy. This has to do with reductions of greenhouse 
gases nationally. That is a determination that is made by the 
White House in consultation with all of the agencies, including 
EPA, that look at what existing authority we have, what is 
planned, what is reasonable, and what is achievable.
    Mrs. Ellmers. So, can you explain that process then? So, 
you are saying that EPA was involved. Number 1, what other 
agencies were involved? And describe that process to us of how 
that became the determining number.
    Ms. McCarthy. Actually, I wasn't involved in the 
calculation of that number. EPA's job was to look at our 
regulatory authority, what we thought was reasonable and 
achievable under our existing authorities. We provided that 
information to the White House. Other agencies similarly did 
that. And that was the commitment, and the accounting was done 
behind that to submit for our commitment.
    Mrs. Ellmers. Was the public consulted on this beforehand?
    Ms. McCarthy. I apologize.
    Mrs. Ellmers. No problem. Was the public, was there a 
comment period for the public on this? Again, I am trying to 
find out how we came up with that number and was there 
consideration of public comment.
    Ms. McCarthy. I am not aware of that process.
    Mrs. Ellmers. OK. Well, I guess what I am asking now is, 
can you provide for the committee what it was or the sources 
that the EPA used to--I know you said that this has more to do 
with jurisdiction, the involvement of regulations and 
authority. Can you provide for the committee what information 
you used to come up with the EPA's authority on that?
    Ms. McCarthy. I can see what I can make available to you--
--
    Mrs. Ellmers. OK.
    Ms. McCarthy [continuing]. And at what level. The reason I 
am just double-checking is I believe that number was by 2030, 
not 2025.
    Mrs. Ellmers. Not 2025? OK.
    Ms. McCarthy. I could be wrong, but I am just having 
trouble----
    Mrs. Ellmers. OK. Questionable 2030. OK. All right.
    I just want in the time I have left--I only have about 40 
seconds left--EPA's budget document states that the Clean Power 
Plan is ``The President's highest priority for the EPA and the 
central element of the U.S. domestic climate mitigation 
agenda.''
    Ms. McCarthy. Yes.
    Mrs. Ellmers. Is the Obama administration's pledge to 
reduce emissions by 26 to 28 percent below 2005 levels 
contingent on the Clean Power Plan?
    Ms. McCarthy. Well, the Clean Power Plan was a reflection 
of what we thought the direction of the energy transition was 
heading. What we are seeing already is that the energy 
transition is happening towards the low-carbon sources even 
more quickly than we had anticipated. So, we fully expect the 
Clean Power Plan, when it is looked at on its merits, would be 
found to be legally solid. We don't think we are going to lose 
any ground in terms of our ability to make those commitments 
real.
    Mrs. Ellmers. OK. So, just in closing, because I am 
actually over time, you don't believe that there would be a 
delay further at the court level as far as the Clean Power Plan 
goes?
    Ms. McCarthy. I think that the Clean Power Plan will be 
found to be legally solid and it will move forward, and that we 
will not be in a position to have lost ground in the end, when 
it is fully implemented.
    Mrs. Ellmers. Thank you very much, and I yield back.
    Mr. Whitfield. At this time the Chair recognizes the 
gentleman from Indiana, Dr. Bucshon, for 5 minutes.
    Mr. Bucshon. Thank you very much.
    Sorry.
    Ms. McCarthy. I am sorry.
    Mr. Bucshon. No, no, no, I just totally paused my time 
while you had to get some counsel from your staff.
    Ms. McCarthy. Yes.
    Mr. Bucshon. A couple of things. First of all, earlier in 
your testimony you mentioned carbon capture and sequestration, 
facility sites that are working in the United States. Can you 
give me the name and the address of all of those places that 
are----
    Ms. McCarthy. I would be happy to do that.
    Mr. Bucshon. And whether or not they are in continuous 
operation?
    Ms. McCarthy. Yes.
    Mr. Bucshon. Because that I am aware of--I mean, maybe I am 
wrong--but there aren't any. There is a couple of--one in 
Illinois and one up in Canada. If there are some down in the 
South, maybe Louisiana that are working----
    Ms. McCarthy. We definitely want to----
    Mr. Bucshon [continuing]. I would be interested in knowing 
because you made it sound like this is an ubiquitous thing 
across the country, that carbon capture is----
    Ms. McCarthy. I would be happy to do that, sir. I do 
realize that----
    Mr. Bucshon [continuing]. is working because----
    Ms. McCarthy. But it is used not just on coal facilities, 
on generating facilities. It has other applications where it is 
being used today.
    Mr. Bucshon. OK. So, are there any coal facilities that it 
is working on right now today?
    Ms. McCarthy. I believe it is in Kemper here and I believe 
there is a dam in Canada where it is being fully utilized.
    Mr. Bucshon. Yes, and the one in Canada is going broke, by 
the way, and the one in Illinois----
    Mr. Whitfield. And Kemper is not operating.
    Mr. Bucshon. And Kemper is not operating.
    Ms. McCarthy. OK.
    Mr. Bucshon. So, the idea is that was misleading, I think, 
to say that carbon capture and sequestration, when we were 
talking about coal-fired power plants, is commercially viable. 
In Indiana I have every coal mine in the State. So, to my 
knowledge, it is not commercially viable or economically viable 
to implement that in Indiana. If it was, I would be in favor of 
it being on all of our coal-fired power plants.
    Just so you know, I agree the temperature is changing. I 
agree that, with technology and innovation, we should always be 
advancing how to use all of our fuels. I agree with that 
premise. What I don't agree with is federal agencies setting 
regulations that can't be met with current technology, and that 
is what this is doing.
    With that said, I am going to change course a little bit 
and talk about athletic fields.
    Ms. McCarthy. OK.
    Mr. Bucshon. We have noticed that, I think, in recent media 
reports in the press about alleged potential adverse health 
effects young people might experience from playing on crumb 
rubber athletic fields. Almost two months after the committee 
sent you a letter asking a number of questions about this 
situation, Dr. Thomas Burke signed a letter stating that, 
although the EPA was aware of the number of studies that showed 
no elevated health risks, the studies are limited and did not 
comprehensively address the concerns about risks to children's 
health from these exposures.
    Ms. McCarthy. Yes.
    Mr. Bucshon. EPA then said that, in order to fill in the 
gaps, it was planning to work with the State of California on a 
comprehensive evaluation of tire crumb. Ultimately, the EPA 
decided not to work with California and now is collaborating 
with the Centers for Disease Control and Prevention and the 
Consumer Product Safety Commission on a 1-year study.
    So, the question I have is, what changed the EPA's mind 
about working with California. I mean, I am just generally 
interested in getting the information, so that all of us can 
make an assessment of whether this is or is not a problem for 
kids.
    Ms. McCarthy. Well, I appreciate that. Part of the 
challenge that we were facing was that some of the studies, the 
earlier studies that had been done, really weren't looking at 
the material that is being used currently in most fields. We 
are finding that the material themselves, those small balls 
that are being used, actually have an opportunity for potential 
exposures that we hadn't really looked at. And the materials 
themselves are changing. So, we felt that it was prudent, given 
the concerns, to just take a look at it because the material 
itself is changing.
    Mr. Bucshon. Sure.
    Ms. McCarthy. How it is being utilized is different. We 
thought we should at least close the loop to make sure that 
there weren't human exposure potentials that we hadn't yet 
evaluated.
    Mr. Bucshon. OK, and I appreciate it. So, the study, is it 
1 year? You are planning on a 1-year study----
    Ms. McCarthy. Yes.
    Mr. Bucshon [continuing]. That will have the impacts?
    Ms. McCarthy. We are hoping to have good data by the end of 
this year.
    Mr. Bucshon. OK. Tell me the kind of description of it 
because I was a healthcare provider before I was a doctor, and 
sometimes it takes many, many years to determine the health 
impacts. If you do a study for a year----
    Ms. McCarthy. Yes.
    Mr. Bucshon. If you do a study for a year, then you may not 
know what the health impacts are for 5 or 10 years later. I am 
just kind of interested in that.
    Ms. McCarthy. When we got together, we realized that there 
were studies being done, but people were concerned. And the 
scientists said the first question to look at is whether there 
was any potential exposure route. If I can't ingest it, if it 
can't get in my blood, if it can't get into my system--so, this 
is really about identifying whether there is an exposure route.
    Mr. Bucshon. That makes total sense. OK. So, it is just the 
initial study is about exposure, only about exposure, not----
    Ms. McCarthy. It is not what that exposure results in in 
terms of health impacts.
    Mr. Bucshon. OK. OK. That clarified it.
    Well, this seems to me a developing important issue related 
to athletic fields not only for children, but other athletes. 
And so, I appreciate your work.
    Thank you for being here.
    I yield back.
    Ms. McCarthy. Mr. Chairman, I apologize. I raised 
confusion. I think it is 26 to 28 percent by 2025. I had a 
little brain freeze. So, I just wanted to thaw it out while I 
had a moment.
    Mr. Whitfield. Thank you very much for bringing that to our 
attention.
    At this time I recognize the gentleman from Oklahoma, Mr. 
Mullin, for 5 minutes.
    Mr. Mullin. Thank you, Mr. Chairman.
    Administrator, thank you for being here today. I cannot 
imagine how bad your head must be hurting going through this 
entire line of questioning, but we do appreciate your time and 
your effort for being here.
    I have a couple of questions. On January 14th of this year, 
I sent a letter, along with 14 other members who sit on this 
committee and subcommittees, with three questions about your 
agency's plan to send U.S. federal employees overseas to help 
countries meet emission chart targets that were set at the 
Conference of Paris at the end of last year. We requested the 
answers by January 29th. It is now March 22nd, and we have yet 
to hear from anybody. Are you aware of this letter? Have you 
received this letter?
    Ms. McCarthy. I am sure the agency has. I will double-check 
on the response. Is this specific to Paris or is this more 
broad?
    Mr. Mullin. This is specific to Paris, to a statement that 
you made while speaking to send federal employees, EPA 
employees, over to other countries to help them identify 
emissions. Are you familiar with that?
    Ms. McCarthy. Not particularly, but I will certainly look 
at it.
    Mr. Mullin. You gave a speech at the Council of Foreign 
Relations----
    Ms. McCarthy. OK.
    Mr. Mullin [continuing]. And you mentioned that the EPA 
would deploy employees to certain countries to help these 
countries learn how to identify and measure sources of 
greenhouse gas emissions.
    The letter that we sent to you specifically asked three 
different questions. Now, one, I do have a letter here with me 
that I will be happy to give to you, and I would like to submit 
it, also, for the record. I have a copy for you to have.
    [The information appears at the conclusion of the hearing.]
    Mr. Mullin. It asks three questions. And those three 
questions, since you are here today, I am going to go ahead and 
ask you. One, how many U.S. federal employees will be deployed 
to participate in these countries?
    Ms. McCarthy. I don't know the answer to that question, 
sir. I think you are referring to the work we do with the 
Department of State to do capacity-building in other countries. 
Very often, that is----
    Mr. Mullin. That may be true, but in your statement you 
said that the EPA was going to deploy these.
    Ms. McCarthy. The EPA does do that, but we often resource 
from the Department of State for those----
    Mr. Mullin. So, how many employees do you plan on sending? 
I mean, you are here today to talk about your budget, and I am 
concerned that the EPA is using taxpayer dollars to send 
employees to other countries to help them with a non-binding 
agreement that was set in Paris.
    Ms. McCarthy. Well, the kind of resources that we have in 
our international unit is actually very small. If we want to 
utilize more for a purpose like this, which is our capacity-
building, related to the Paris agreement, then it usually is 
the Department of State provides us those direct resources.
    Mr. Mullin. We have reached out personally from my office. 
The Oversight Committee has also reached out, to zero response, 
none.
    Ms. McCarthy. Yes, sir.
    Mr. Mullin. Your office has yet to respond back to us. We 
asked for January 29th. And so, once again, I will ask these 
three questions. If you don't have the answers, I would really 
appreciate your getting back to us----
    Ms. McCarthy. OK.
    Mr. Mullin [continuing]. In a timely manner----
    Ms. McCarthy. Yes.
    Mr. Mullin [continuing]. Which hasn't happened so far.
    One was, how many federal employees are going to be 
deployed? Second, how long will these employees be deployed? 
And third, what will the cost be to deploy?
    Ms. McCarthy. OK. So, I will go check on the response and--
--
    Mr. Mullin. Do you have any answers to that right now?
    Ms. McCarthy. I do not know the answers to those questions.
    Mr. Mullin. Do you think it is appropriate to send 
individuals from the EPA that are being paid by taxpayer 
dollars from the United States to help countries meet a non-
binding agreement?
    Ms. McCarthy. Sir, we do work internationally because 
pollution knows no boundaries.
    Mr. Mullin. How much do you spend in the EPA working in 
other countries? Is it EPA? I mean, because we have a hard 
enough time dealing with you guys in the United States, much 
less in other countries.
    Ms. McCarthy. We have very few resources in this regard, 
but we utilize them in----
    Mr. Mullin. What are the resources you----
    Ms. McCarthy. We spend a lot of time training trainers in 
other countries to----
    Mr. Mullin. When you say ``very little,'' what is that 
number? You are referring to a specific number by saying ``very 
little''. How much is that number?
    Ms. McCarthy. Well, let me tell you.
    Mr. Mullin. I would appreciate that.
    Ms. McCarthy. This has to do with the total number of 
grants is less than 1 percent.
    Mr. Mullin. What is that 1 percent? What does that 
represent in dollar amounts?
    Ms. McCarthy. One point six million.
    Mr. Mullin. One point six? And that is not including what 
the State Department helps offset, is that correct?
    Ms. McCarthy. That would be our resources. The State 
Department would----
    Mr. Mullin. Can you give me----
    Ms. McCarthy. Oh, I am sorry. I am sorry. That includes 
State Department.
    Mr. Mullin. That includes the State Department?
    Ms. McCarthy. Is that what you said?
    Mr. Bloom. Or come from other federal agencies.
    Ms. McCarthy. Let me get back to you.
    Mr. Mullin. I would appreciate the total numbers, if you 
don't mind.
    Ms. McCarthy. I don't want to be incorrect.
    Mr. Mullin. I am out of time, but I would make sure in a 
timely manner that you respond back to us, because, once again, 
this is talking about budget and we are talking about dollars 
spent here. Thank you.
    Mr. Whitfield. And also, I mean, that is a very good point. 
We would like to know the total dollar value of the grants 
given to other countries by EPA.
    Mr. Mullin. Yes.
    Thank you, Mr. Chairman.
    Mr. Whitfield. The gentleman's time has expired.
    At this time the Chair will recognize the gentleman from 
Missouri, Mr. Long, for 5 minutes.
    Mr. Long. Thank you, Mr. Chairman.
    And, Ms. McCarthy, I understand that the EPA has set a 
standard of 70 parts per billion for the 2015 Ozone Standards. 
Does this mean that counties over 70 parts per billion will be 
designated as being in non-attainment, I think is the phrase 
you use, with the 2015 standards?
    Ms. McCarthy. It means that we are looking at 2014, 2015, 
and 2016, using a specific formula to identify those that are 
in non-attainment.
    Mr. Long. But the ones that will be in non-attainment are 
the ones that are over 70 parts per billion, correct?
    Ms. McCarthy. Yes.
    Mr. Long. OK.
    Ms. McCarthy. Using that formula.
    Mr. Long. And will those counties become subject to new 
planning requirements like State Implementation Plans, and 
other obligations?
    Ms. McCarthy. Yes, sir.
    Mr. Long. Counties that are below 70 parts per billion will 
not be subject to these same planning requirements, is that 
correct?
    Ms. McCarthy. They may be subject to earlier requirements, 
depending upon whether----
    Mr. Long. No, I am not talking about earlier requirements. 
I am talking about this requirement.
    Ms. McCarthy. No, sir, they would not be.
    Mr. Long. OK. The EPA has said that most areas will be in 
compliance with the 2015 standards by 2025 under existing 
regulations and programs. Once these counties meet the 
standards in 2025, will the non-attainment designation 
automatically be lifted or is there a process for that, also?
    Ms. McCarthy. No, there is a process for that.
    Mr. Long. OK. My understanding is that, once an area is 
designated to be a non-attainment, it is locked into a complex 
bureaucratic process to meet these standards, followed by an 
additional 20 years of the maintenance plan and oversight from 
the EPA. How is it that the county that is just over 70 parts 
per billion gets locked in a 20-year-plus process while similar 
counties just barely under 70 parts per billion do not have to 
undergo this process? Could you explain----
    Ms. McCarthy. Yes.
    Mr. Long [continuing]. The wisdom of that to me?
    Ms. McCarthy. I think that what we try to make sure that we 
do is, when you are designated as non-attainment, we try to 
make sure that whatever actions the state took to drive down 
the pollution that level and to achieve healthy air does not 
backslide. So, it is just a question of maintaining those 
actions, so that you can continue moving forward, knowing that 
you have not only achieved it on a given date, but you don't 
backslide and start allowing emissions that would, then, drive 
you into non-attainment again.
    Mr. Long. But the ones that barely got under the 70 
billion, do they have to worry about backsliding?
    Ms. McCarthy. No, they don't because we have determined 
that that is the level that we are seeking to achieve to 
provide healthier air, and there is no legal reason why we 
would want them to do more. We want everybody to stay below 
that 70 level.
    Mr. Long. Is there any way to reduce the 20-year regulatory 
burden on counties that are just barely out of the window?
    Ms. McCarthy. Well, we are talking to the states because I 
think there is an opportunity to streamline that process, and 
we are working with states all the time to try to make sure 
that we do that, to streamline the process of redesignating 
them as areas of attainment and, also, that we make sure that 
we don't overburden them with this obligation for anti-
backsliding.
    We know that states worked hard to get there. They don't 
want to backslide. We just want to make sure that we have a 
system in place that maintains that. But if there are ways in 
which we can streamline it, we certainly want to do it.
    Mr. Long. OK. Thank you, Mr. Chairman. I yield back.
    Mr. Whitfield. The gentleman yields back.
    At this time I recognize the gentleman from Mississippi, 
Mr. Harper, for 5 minutes.
    Mr. Harper. Thank you, Mr. Chairman.
    Administrator McCarthy, I know it has been a long day. We 
thank you for coming, though, to help us understand some of 
these issues in a better manner.
    The Clean Power Plan includes various compliance deadlines 
for states ranging from September of this year, when plans 
would have been due, through 2030. Assuming that the rule is 
upheld, won't each deadline under the rule be extended by the 
amount of time for completion of judicial review?
    Ms. McCarthy. Well, that is not actually what the Supreme 
Court said, but we assume that the courts will make that 
judgment over time or leave that to EPA to make their own 
judgment. It is usually spoken to, but not at this stage.
    Mr. Harper. Well, let me ask you, are you aware that in the 
filings submitted to the Supreme Court that the Solicitor 
General explicitly said that the effect of the stay would be 
toll every sequential step of the rule's implementation?
    Ms. McCarthy. I think what he was speaking to was that the 
request for a stay included that in it, but the Supreme Court 
did not choose to make that determination. They simply said 
that it would be stayed until it made its way back. And we 
expect that it will be there in due time and that the courts 
really will speak to that or give it to EPA to make that 
determination. But I don't know what choice they are going to 
make until they go and make it.
    Mr. Harper. Sure. The Solicitor General also said that 
granting the stay--and I am quoting what he said, ``would toll 
all of the rule's deadlines, even those that do not come due 
until many years after'' the case would be resolved, for the 
period of time between the rule's publication and the ultimate 
disposition of this suit. Was the Solicitor General right or 
wrong when he----
    Ms. McCarthy. No, he was speaking to the full breadth of 
what folks were looking for who were seeking a stay. But the 
Supreme Court didn't speak to that issue. The only thing they 
spoke to was the stay of the rule. They didn't speak to any 
tolling or what it meant in terms of compliance timelines.
    Mr. Harper. Sure. Are you encouraging states and utilities 
to continue to work with EPA in the event that the rule is 
upheld?
    Ms. McCarthy. We are certainly encouraging states to 
continue to look at where their energy system is moving 
forward, and we have made ourselves available to states that 
voluntarily want to keep looking at their implementation 
options. And we will keep working with them on that, but we 
certainly won't do anything that implements or enforces the 
rule, consistent with the Supreme Court stay dictates.
    Mr. Harper. The point of the stay was to protect the 
economic interests of states and stakeholders, regardless of 
whether the rule is overturned. So, you appear to be signaling 
the states that they must continue to take action and expend 
resources, and signaling to utilities that they must respond to 
the potential rule, which appears to undermine the purpose of 
the stay. If you can't respect the purpose of the Supreme 
Court's stay, it appears that Congress may have to take steps 
to come in and prevent you from taking any action that 
effectively undermines the stay.
    Ms. McCarthy. Well, as I have said, sir, EPA is not 
dictating any implementation of this rule or telling any state 
they have to do anything. We are just offering an ability to 
support them, as we always do.
    Mr. Harper. So, that is not happening in any conversations 
with any utilities that you are aware of?
    Ms. McCarthy. No, not that I am aware of, sir.
    Mr. Harper. In your testimony you state, ``Although the 
Supreme Court has stayed the Clean Power Plan Rule, the stay 
does not preclude all continued work on the CPP.'' Has EPA 
discontinued any of its previously-planned activities relating 
to the Clean Power Plan since the stay was issued and, if they 
have, what activities ha ve been discontinued?
    Ms. McCarthy. Well, we have been working with the 
Department of Justice, and it is very clear we have 
discontinued our implementation and enforcement of the rule. 
What we have not discontinued is our willingness to work with 
states that want to voluntarily keep moving forward to look at 
planning, but we certainly are not indicating to states that we 
expect to see their preliminary plans come in or that they 
should be working on those at this point in time.
    Mr. Harper. Has there been any action to encourage the 
utilities or states to continue to work with you? Any 
incentives or anything of any nature?
    Ms. McCarthy. We have not provided any incentive for that, 
no.
    Mr. Harper. Has EPA reassigned any of its staff to other 
projects as a result?
    Ms. McCarthy. I can't answer that specifically. I don't 
manage the staff at that level.
    Mr. Harper. Yes. I believe my time is close enough. I will 
yield back.
    Mr. Whitfield. The gentleman yields back.
    At this time the Chair recognizes the gentleman from Texas, 
Mr. Flores, for 5 minutes.
    Mr. Flores. Thank you, Mr. Chairman.
    Administrator McCarthy, thank you for joining us today.
    In November of 2014, the EPA proposed a new, more stringent 
standard for ozone prior to finalizing the implementation 
standards for the standard set in 2008. In fact, what this did 
is it forced states to make decisions under a new standard 
without final implementation rules on the prior standard, all 
again coming from your agency. And so, not only from an air 
quality standpoint, but also from an administrative standpoint, 
does it make sense to permit the 2008 standard to be fully 
implemented prior to doubling down and creating a new standard?
    Ms. McCarthy. Actually, that is not the way the law has 
been worked or has been implemented. The prior standards remain 
in place. Some states achieved those. In fact, we have had 
great success in NO<INF>x</INF> reductions or ozone compliance 
since we first started identifying health-based standards and 
moving forward.
    So, we do not believe you have to--in fact, I don't think 
the law says that we are supposed to wait until one is done 
before we do and take a look at whether the health-based 
standard needs to be adjusted. It is required for us to look at 
that every 5 years, regardless of attainment status.
    Mr. Flores. Well, but you rolled out a new set of rules at 
the same time right after you rolled out the implementation 
standards for the 2008 rules. And so, what you basically 
created is two sets of standards that states have to follow.
    The National Association of Clean Air Agencies testified to 
EPA that the new ozone standard will have a profound impact on 
the work of state and local air pollution control agencies, 
which differs from what you just said. Did the EPA assess the 
impact that implementing the new ozone standards would have on 
state and local agencies that were already trying to implement 
the 2008 standard?
    Ms. McCarthy. We did look at that impact, sir, and we did a 
cost/benefit analysis of that. And we determined that the 
benefits far exceeded the cost, but there is no question that 
it provides the need for both EPA and states to actually expend 
more resources. And for that reason, this budget includes both 
additional resources for EPA for that implementation as well as 
a request that state resources be also boosted up as a result 
of this.
    Mr. Flores. Wouldn't it make more sense for these standards 
to be harmonized, so that you could flow from the 2008 standard 
to the 2015 standard, instead of trying to worry about the dual 
implementation?
    Ms. McCarthy. Well, sir, we do the best we can to make sure 
that we are not requiring duplication of the states as they 
move forward with their implementation planning.
    Mr. Flores. Now the EPA chose to project the cost of its 
new ozone standard to 2025. In a sense, EPA bases its entire 
economic analysis on predicted 2025 air quality.
    Ms. McCarthy. Yes.
    Mr. Flores. Would the agency support extending compliance 
deadlines under the standards to 2025?
    Ms. McCarthy. We have not considered that at this point, 
sir. We are actually following the statutory timelines.
    Mr. Flores. In the budget, EPA has requested funding for 
implementation of new National Ambient Quality Standards. I 
have got two parts to this question. One, when will EPA begin 
the process of implementing the 2015 standards?
    Ms. McCarthy. We are already in the process of providing 
guidance to the states on that. We have yet to complete 2016 
and see what that data looks like because the actual attainment 
decisions and non-attainment decisions are based on 2014, 2015, 
and 2016 data. And then, we have the process of working with 
governors from that point forward to see where the non-
attainments areas they would suggest, and we look at those. So, 
we are talking about non-attainment designations in 2017. That 
is when we also make determinations on how difficult the 
attainment process is, which dictates how quickly attainment 
needs to be achieved. And then, that is how they do their state 
implementation plans to coordinate with achieving those 
reductions in those time----
    Mr. Flores. Right, but when you established the last set of 
standards in 2008----
    Ms. McCarthy. Yes.
    Mr. Flores [continuing]. EPA almost immediately began 
reviewing that standard, but it didn't finalize the 
implementation for 7 years, until 2015. So, shouldn't we have a 
system where we prioritize implementation of existing 
regulations before we expend resources on a new implementation?
    Ms. McCarthy. Well, I think the way we look at it--and you 
are right, we should be avoiding duplication as much as 
possible or any extra work--but it is almost as if we now know 
what the health-based goal is. And getting there is the 
challenge. The fact that we get partway there with one decision 
and further along with another is not shifting direction. It is 
all moving to the direction of healthy air.
    Mr. Flores. I would submit that you have created a lot of 
confusion in the real world, and that is something that you and 
I are going to disagree on.
    Ms. McCarthy. Yes.
    Mr. Flores. I am going to throw out one last thing. I sent 
you a letter on May 29th of last year regarding the Regional 
Haze Plan for Texas. I got a letter from the Region 6 Director 
about two months later in 2015, and he said he couldn't comment 
on anything because you were in the rulemaking process. I never 
did get a followup to that letter. So, I would like, now that 
you have completed your rulemaking for the Regional Haze 
Project, I would like to get a followup letter to answer the 
six questions I put in my May 29th letter----
    Ms. McCarthy. Yes, sir.
    Mr. Flores [continuing]. From 2015.
    So, Mr. Chairman, I yield back.
    Mr. Whitfield. The gentleman yields back.
    And that concludes the questions today.
    Ms. McCarthy, I just want to make a couple of comments, and 
Mr. Tonko may or may not want to make some summary statements.
    First of all, I think anyone who has worked with you likes 
you because you have a great personality and you are effective 
in what you do. But I think you also recognize that America 
really is a divided country today and there really is a red and 
blue America.
    And one of the reasons, certainly not the only reason, but 
one of the reasons those of us on our side of the aisle, when 
we go back to our districts, a common theme that we hear is the 
excess authority and pushiness, for lack of a better word, of 
the EPA. That comes about for a lot of different reasons, the 
Clean Power Plan being one of those.
    Congress had nothing to do with that. Now I recognize that 
many on the left side of this dais support it. But that was 
initiated by the executive branch entering into international 
agreements, non-binding, and the EPA has been driven because of 
that.
    Twenty-seven states filed lawsuits to try to delay it. I 
talked in an opening statement about the Brick MACT. You all 
lost that in the U.S. Court of Appeals, the Utility MACT, the 
Tailoring Rule, the Clean Energy Plan. So, many people out 
there in the country say here's EPA going right down the road 
trying to accomplish their goals set by this administration 
without a lot of input from the Congress, and many times being 
overruled by the courts. Now I recognize that a stay is not a 
decision on the substantive part of a rule, but it is a 
probability or they would not have issued the stay.
    So, I just want to point out that you all have the Clean 
Air Act, you have the Clean Water Act. All of us want to 
protect the environment, but I just want you to know personally 
that there are many people out there who do feel that EPA 
particularly is being overly-aggressive. And I don't know what 
the final outcome of that is going to be, but it is something 
that should concern all of us. Like I said, America is divided. 
There is no question about that. We know that.
    But I want to thank you for spending the entire day 
testifying before the Appropriations Committee, our committee, 
about your budget. We appreciate your willingness to work with 
us, and we will be submitting the individual requests that 
members have made about additional information they have 
requested. And we will keep the record open for 10 days here 
for additional comments.
    I now recognize Mr. Tonko for whatever time he might want.
    Mr. Tonko. Thank you, Mr. Chair, and thank you for the 
hearing.
    And thank you, Administrator, for joining us and for all of 
your cooperation and for your leadership.
    Rather than focusing on our divided nation, I will talk 
about a united nation that is united in its need for clean 
water. It affects every life; it affects every job.
    And so, we look forward to working with you and EPA on 
advancing clean drinking water as an outcome that provides 
resources to our states and local governments, and will have a 
strong outcome, I think, for both residential opportunities, 
families and children, and for businesses alike.
    So, thank you again.
    Mr. Whitfield. Thank you, Mr. Tonko.
    And that concludes today's hearing, and thank you again.
    [Whereupon, at 5:17 p.m., the subcommittees were 
adjourned.]



[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]


                                 [all]
</pre></body></html>
